U.S. DEPARTMENT OF COMMERCE
Office of Inspector General
Room 7099C, HCHB
1401 Constitution Avenue, N.W.
Washington, D.C. 20230

Internet Web Site:
http://www.oig.doc.gov




                                 September 2003
              OF INSPECTOR
         FICE              GEN
        F                     ER




    O
                                AL




    U
        S.



    .
             DE
                  PA
                     RT




                                                                E
                        M            ENT                        C
                                             O F CO M M E R




      IG’s
Semiannual Report
  to Congress

                                           ral Act o
                              G      ene               f1
                           or                            9
                      t




                                                         78
                    ec
                  I nsp
                  H
              Twe
                   nt




                          -f
                      y




                               if                           y
                                    th                 ar
                                         A n n ivers




    September 2003
September 2003

The Honorable Donald L. Evans
Secretary of Commerce
Washington, D.C. 20230


Dear Mr. Secretary:

I am pleased to provide you with the Inspector General’s Semiannual Report to Congress for the second half of fiscal year
2003. Section 5 of the Inspector General Act requires that you transmit this report, with any comments you may wish to add,
to the appropriate committees within 30 days of your receiving it.

Since its beginning, with the Inspector General Act of 1978, this office has worked diligently to fulfill its mission. Our mandate
was and is clear; and through our work we continue to strive to design recommendations to promote economy, efficiency, and
effectiveness and to prevent and detect fraud and abuse in Department of Commerce programs and operations. During this
silver anniversary of the Inspector General Act, I reaffirm our commitment to working with you, other Commerce officials,
and unit managers to achieve excellence throughout this Department.

During this semiannual period, we made significant progress in meeting the goals we outlined in our work plan, monitored
improvement in challenge areas, and addressed issues brought to our attention by members of Congress. We deepened our
commitment to work with Department managers to strengthen Commerce IT and physical security, clarify and enhance
performance measures, highlight and promote best practices and improved procedures, and ensure the efficient and effective
progress of Commerce activities.

I am gratified to say that we have identified many policy and procedural improvements made within Commerce agencies to
address our findings and recommendations. Through these improvements, we remain conscious of the impact of our work and
dedicated to diligence and timeliness. Commerce’s varied national and international roles and responsibilities play an
important part in the nation’s well-being. We are proud of our association with this Department and look forward to continued
years of success through cooperation.

Sincerely,




Johnnie Frazier




                                                                                                                   OF INSPECTOR
                                                                                                               ICE              GEN
                                                                                                             FF                    ER
                                                                                                         O




                                                                                                                                     AL
                                                                                                         U




                                                                                                             S.
                                                                                                          .




                                                                                                                  DE
                                                                                                                       PA
                                                                                                                          RT
                                                                                                                                                        E




                                                                                                                             M   ENT                    C
                                                                                                                                       O F CO M M E R
CONTENTS
IG’s Message to Congress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
      Strengthen Department-Wide Information Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
      Effectively Manage Departmental and Bureau Acquisition Processes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
      Successfully Operate USPTO as a Performance-Based Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
      Control the Cost and Improve the Accuracy of Census 2010 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
      Increase the Effectiveness of Marine Resource Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
      Increase Fair Competition in International Trade . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
      Enhance Export Controls for Dual-Use Commodities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12
      Enhance Emergency Preparedness, Safety, and Security of Commerce Facilities and Personnel . . . . . . . . . . . . . . . . . . . . . . . . .13
      Strengthen Financial Management Controls and Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13
      Continue to Improve the Department’s Strategic Planning and Performance Measurement in Accordance with GPRA . . . . . . .14


Department of Commerce Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15


Agency Overviews
      Bureau of Industry and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16
      Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17
      Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
      International Trade Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
      Minority Business Development Agency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .24
      National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25
      Technology Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32
      United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .36
      Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .37


Office of Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41
      Tables and Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47
      Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .56


Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .58



September 2003/Semiannual Report to Congress
IG’s Message to Congress

                                                                              expenditures between reimbursable and nonreimbursable

T
       his year marks an important milestone for Offices of
       Inspector General throughout the federal government: for               projects (see page 28).
       25 years we have been partners in a strong and, I believe,         ■   A review of airfreight charges paid by the Census Bureau
highly beneficial relationship with Congress and the respective               during Census 2000 revealed that the bureau—by failing
agencies we have been charged with overseeing.                                to estimate charges prior to shipping and to reconcile
                                                                              billing statements with services provided—overpaid
To quote the vice chair of the President’s Council on Integrity and           some $2 million during an 11-month period
Efficiency, “the role of the IG is to protect the integrity of                (see page 21).
government programs through traditional audits and other
reviews; improve program effectiveness; and prevent and detect        Program/Operational Management. Our evaluation of Census
fraud, waste, and abuse.” I believe, as a community, IGs have         2010 plans and preparations has begun, and we are monitoring
done much to accomplish these goals. And equally important, our       Census Bureau activities in light of our recommended
efforts have been instrumental in improving program, financial,       improvements issued in Improving Our Measure of America:
and management operations and reducing fraud and abuse of             What Census 2000 Can Teach Us in Planning for 2010. During
public resources.                                                     this semiannual period, we assessed bureau efforts thus far to
                                                                      update its address/mapping system and found that its late start in
I have had the privilege of being both a witness to and participant   implementing a project management process has increased the
in the strength of the Congress/Commerce/OIG partnership.             risk that the system will not be thoroughly tested before the 2008
This office has been instrumental in monitoring and nurturing         dress rehearsal (see page 20).
the evolution of policies and processes to meet ever more
complex challenges.                                                   We also evaluated two NOAA activities:
                                                                          ■   Critical Hydrographic Survey Backlog. NOAA has
This Semiannual Report to Congress details our most recent
                                                                              committed to eliminating the backlog of hydrographic
efforts to build on the strengths and accomplishments engendered
                                                                              surveys of the roughly 43,000 square nautical miles des-
by this 25-year partnership. Highlights of that work are
                                                                              ignated as “critical” to ocean-going commerce, travel,
detailed below.
                                                                              and scientific research by FY 2017. Our review of its
                                                                              progress toward this goal revealed that NOAA
Contracts/Financial Responsibilities. Our work in these areas
revealed some especially disturbing contract and financial-related                ●   has made “undocumented” changes to the baseline
weaknesses in a number of bureau projects and activities:                             survey area;
    ■   Our evaluation of a modification to a NOAA/NWS con-                       ●   obligated $6.5 million of its Address Survey
        tract for acquiring transitional power sources for the Next                   Backlog funding to survey locations outside the
        Generation Weather Radar (NEXRAD) system found,                               critical survey backlog area;
        among other things, that the change was made without                      ●   does not adequately track program costs or enforce
        adequate negotiation, review, or oversight, and resulted in                   contractor delivery deadlines; and
        increased contract costs of approximately $4.5 million.                   ●   lacks a detailed work plan to eliminate the critical
        Moreover our evaluation identified various technical,
                                                                                      survey backlog (see page 26).
        management, and contractual problems that warrant man-
        agement’s attention (see page 25).                                ■   National Marine Fisheries Service’s Groundfish
                                                                              Survey. Our review of NMFS’ policies and procedures
    ■   An audit of reimbursable activities at NOAA’s
                                                                              for collecting this vital data revealed that the agency
        Environmental Technology Laboratory identified signifi-
                                                                              lacks sufficient protocols for properly operating and
        cant instances of noncompliance with Department and
                                                                              maintaining survey gear, and documenting these efforts;
        agency policies and procedures for administrative control
                                                                              responding to stakeholder concerns; and tracking gear-
        of funds such as failure to recover full costs for reim-
                                                                              related cost data (see page 30).
        bursable projects as well as inappropriate transfers of




September 2003/Semiannual Report to Congress                                                                                            1
IG’s Message to Congress



IT Security. In my testimony before Congress on federal IT             A FINAL NOTE
security weaknesses during this reporting period, I noted that
Commerce has made progress, but significant improvements are           The IG Act entrusted Offices of Inspector General with the
needed to adequately secure its hundreds of critical systems. Our      responsibility for making government work better, and required
annual review of Department-wide information security, this year       that we apprise Congress of our progress in doing so. For a
performed under the newly enacted Federal Information Security         quarter century, these semiannual reports have served as the key
Management Act (FISMA), confirmed the magnitude of the                 vehicle for sharing this information.
problem: we found that while Commerce is addressing systems
and data vulnerabilities identified in prior-year reviews, IT          With our submission of this report, we at the Commerce OIG
security remains a material weakness. (See page 37.)                   look forward to many more productive years of working with
                                                                       Department officials and Congress to identify and eliminate
Performance Reporting. Our reviews of performance                      administrative, operational, and financial weaknesses across the
measurement and reporting during this semiannual period found          board. In so doing we can avoid potential problems before they
instances of inaccurate and unverified data (see page 24) and          occur and further our ultimate goal of ensuring that this
insufficient internal controls to ensure reported data was accurate,   Department is fully competent to do its part to strengthen the
complete, and understandable (see page 28). These problems call        economy, advance the sciences and technologies, and protect the
into question the reliability of performance information used in       environmental resources of America.
congressional decision-making.




2                                                                                 U.S. Department of Commerce/Office of Inspector General
MAJOR CHALLENGES
FOR THE DEPARTMENT

                                                                       early part of the decade will reap great benefits as the time for the

T
        he Office of Inspector General, in assessing its work at the
        close of each semiannual period, develops the Top 10           decennial draws near. Finally, instead of having a separate
        Management Challenges the Department faces. Each               challenge related to the effective management of major
challenge meets one or more of the following criteria: (1) it is       Commerce renovation and construction projects, we have folded
important to the Department’s mission or the nation’s well-being,      that challenge into the existing challenge for the effective
(2) it is complex, (3) it involves sizable expenditures, or (4) it     management of departmental and bureau acquisition processes.
requires significant management improvements. Because of the
diverse nature of Commerce activities, many of these criteria cut
across bureau and program lines. We believe that by addressing
these challenges the Department can enhance program efficiency         CHALLENGE 1
and effectiveness; eliminate serious operational problems;
decrease fraud, waste, and abuse; and achieve substantial savings.
                                                                       STRENGTHEN DEPARTMENT-WIDE
You will note that with this Semiannual Report to Congress we          INFORMATION SECURITY
have revised our list of Top 10 Management Challenges facing
the Department to reflect shifting priorities for the various          Many of Commerce’s information technology systems and the
challenges and a new area of concern. We have added controlling        data they contain have national significance: the Bureau of
the cost and improving the accuracy of Census 2010 as a new            Industry and Security’s (BIS’) export license data helps control
challenge, with the hope that attention paid to this issue in the      the release of dual-use commodities to countries and entities of
                                                                       concern; the National Oceanic and Atmospheric Administration’s
                                                                       (NOAA’s) satellite, radar, and weather forecasting data and
                                                                       systems provide information used to protect lives and property;
                 MAJOR CHALLENGES                                      Economics and Statistics Administration’s economic indicators
                FOR THE DEPARTMENT                                     have policymaking implications that can affect the movement of
   1. Strengthen Department-wide information security.                 global commodity and financial markets; and U.S. Patent and
                                                                       Trademark Office’s (USPTO’s) patent and trademark information
   2. Effectively manage departmental and bureau
                                                                       is essential to administering patent and trademark law, promoting
      acquisition processes.
                                                                       industrial and technical progress, and strengthening the national
   3. Successfully operate USPTO as a performance-                     economy. Loss of or serious damage to any of these critical
      based organization.                                              systems could have devastating impacts, which makes identifying
   4. Control the cost and improve the accuracy of                     weaknesses and recommending solutions a continuing top
      Census 2010.                                                     priority for this office.
   5. Increase the effectiveness of marine resource
                                                                       The Federal Information Security Management Act, signed into
      management.
                                                                       law on December 17, 2002, provides a comprehensive framework
   6. Increase fair competition in international trade.                for ensuring that information resources supporting federal
   7. Enhance export controls for dual-use                             operations and assets employ effective security controls. FISMA
      commodities.                                                     requires Offices of Inspector General to perform independent
   8. Enhance emergency preparedness, safety, and                      security evaluations of their agencies annually.
      security of Commerce facilities and personnel.
                                                                       Our security reviews found that Commerce’s senior management
   9. Strengthen financial management controls                         continues to give that issue due attention and priority. With the
      and systems.                                                     support of the Deputy Secretary, the Chief Information Officer
   10. Continue to improve the Department's strategic                  (CIO) has worked hard to improve information security
       planning and performance measurement in                         Department-wide. As we reported in our last semiannual, the
       accordance with GPRA.                                           Department issued the Information Technology Security Program
                                                                       Policy and Minimum Implementation Standards and the Policy and



September 2003/Semiannual Report to Congress                                                                                             3
Major Challenges for the Department



                                                                          receive the necessary training.

                                                                          The Department has reported information security as a material
                                                                          weakness in its Accountability Report for the past 2 fiscal years.
                                                                          In our FY 2002 independent evaluation, we stated that the
                                                                          Department should continue to do so until all systems that are
                                                                          part of the critical infrastructure and mission critical have been
                                                                          certified and accredited. The Department, in turn, set a goal for
                                                                          complete certification and accreditation by the end of FY 2003.
                                                                          Although 97 percent of the Department’s systems have been
                                                                          reported as certified and accredited, our FY 2003 FISMA
                                                                          evaluation and individual system reviews revealed numerous
                                                                          systems that had been reported as certified and accredited but
                                                                          contained significant deficiencies in their risk assessments,
                                                                          security plans, and contingency plans—i.e., certification and
                                                                          accreditation materials. Most also lacked evidence that security
                                                                          controls had been tested.

                                                                          We commend the Department on its efforts to certify and accredit
                                                                          its critical systems but believe that information security should
                                                                          continue to be reported as a material weakness for FY 2003. We
                                                                          understand that some certifications and accreditations are being
                                                                          reworked, using improved processes, to meet the requirements of
                                                                          the Department’s new information security policy; but until
                                                                          improvements are made, the risk to Commerce IT systems
                                                                          remains (see page 37).


                                                                          CONTRACT SECURITY WEAKNESSES

                                                                          Inadequate security provisions in Commerce IT service contracts
                                                                          also place systems at risk (see September 2002 Semiannual
                                                                          Report, page 51). IT expenditures accounted for nearly half ($500
Implementation Standards for Remote Access Security, which,
                                                                          million) of all Commerce’s contract/procurement obligations in
together, comprehensively define Commerce’s program for
                                                                          FY 2002, with IT services accounting for roughly two-thirds of
protecting agency information systems. In addition, these
                                                                          that amount (approximately $334 million). Our FY 2003 FISMA
documents clearly delineate the responsibilities of senior agency
                                                                          evaluation found that while some progress has been made in
officials and CIOs and plainly specify system life-cycle
                                                                          incorporating security provisions into recent IT service contracts
information security requirements. The result is that security is
                                                                          (see page 37),2 provisions for controlling access to Department
becoming better integrated into the capital planning and investment
                                                                          systems and networks are generally absent and there is little
control process.
                                                                          evidence of contract oversight or of coordination among
                                                                          contracting, technical, and information security personnel in the
The Department’s noteworthy progress is moderated, however,
                                                                          development of appropriate contract security. We believe these two
by the considerable challenges that persist, the greatest being
                                                                          weaknesses place Commerce systems and data at continued risk.
ensuring adequate security on the hundreds of Commerce
systems, including (1) assessing risk and determining appropriate
security controls, (2) testing and evaluating these controls, (3)
                                                                          USPTO INFORMATION SECURITY REVIEW
certifying and accrediting systems,1 and (4) ensuring that
personnel with specialized information security responsibilities
                                                                          At USPTO, information security has become better integrated
                                                                          into that agency’s capital planning and investment control
1
  Certification is the formal testing and evaluation of the security      process, and system life-cycle information security requirements
safeguards on a computer system to determine whether they meet
applicable requirements and specifications. Accreditation is the formal
authorization by management for system operation, including an explicit   2
                                                                           The term “contract” includes task orders and delivery orders issued
acceptance of risk.                                                       under multiple award contracts and government-wide agency contracts.



4                                                                                    U.S. Department of Commerce/Office of Inspector General
                                                                                                        Major Challenges for the Department



and processes are being improved. In addition, the agency              process with the need to ensure that taxpayer dollars are wisely
continues to work to ensure that its senior program officials          spent and laws and regulations followed.
understand and accept their responsibilities for information
security, a prerequisite for any effective and long-lived program.     Streamlined processes must not come at the expense of basic
Significantly, USPTO is well on its way to having its systems          acquisition principles: careful planning, promotion of
certified and accredited. It does not grant interim accreditations     competition, prudent review of competitive bids, adept contract
without comprehensive risk assessments, security plans, and            negotiations, well-structured contracts, and effective contract
testing; and uses a disciplined certification and accreditation        management and oversight. Moreover, the Department’s
process that includes rigorous testing of security controls. Using     increasing reliance on contractors to provide services makes
this approach the agency has gained a great deal of insight into       following basic acquisition principles essential. Problems we have
system-specific weaknesses that must be corrected and                  identified with service contracting in the past include failure to use
organization-wide security policies, procedures, and processes         performance-based task orders where they would be beneficial;
that must be improved.                                                 inadequate training in the use of performance-based service
                                                                       contracting; insufficient planning for contract administration and
Our last evaluation found that USPTO lacked current                    monitoring; and the need to ensure that adequate security
certifications and accreditations for its systems and suggested        provisions are included and enforced in IT service contracts (see
that it report information security as a material weakness until its   page 37 for a discussion of this last concern).
mission-critical systems are fully certified and accredited.
(USPTO has no systems designated as national critical.) The            The Department agrees that acquisition planning and
agency did so in its FY 2002 Performance & Accountability              management need greater emphasis. It notes that efforts by its
Report and set a goal of certifying and accrediting all high-risk      Office of Acquisition Management (OAM) to improve
systems by the end of FY 2003. The agency subsequently revised         procurement management include (1) establishing an
its system inventory by consolidating more than 100 systems into       acquisitions review board to oversee all major acquisitions; (2)
193—9 mission critical and the remainder business essential. It        evaluating Commerce’s delegation and warrant program, with the
planned to have its 9 mission-critical systems and 1 classified        goal of realigning contracting authorities to increase overall
system certified and accredited by the end of FY 2003. By the          effectiveness and accountability; (3) revising the contracting
end of the fiscal year, all 10 systems had undergone certification     officer’s technical representative (COTR) certification program
testing; 9 had been granted 120-day interim accreditations and 1       to improve accountability and training; and (4) assessing these
had received final accreditation.                                      initiatives to determine their effectiveness. We have not evaluated
                                                                       the effectiveness of these actions, however.
Because of the security weaknesses identified by the certification
process and the lack of final accreditations, however, we believe      The need for increased attention to basic acquisition principles—
USPTO should continue to report information security as a              and for continued improvements and oversight—are highlighted
material weakness for FY 2003 (see page 37).                           by our recent findings discussed below.


                                                                       SELECTED ACQUISITION PROGRAMS
CHALLENGE 2                                                            AND CONTRACTS

                                                                       In response to a congressional inquiry, we reviewed a major
EFFECTIVELY MANAGE                                                     modification to a NOAA/National Weather Service (NWS)
DEPARTMENTAL AND BUREAU                                                contract for a transition power source (TPS) for the NEXRAD
ACQUISITION PROCESSES                                                  weather radar (see page 25). We found that the modification was
                                                                       executed without adequate negotiation or appropriate review and
Federal acquisition legislation in the 1990s mandated sweeping         oversight of the contract, its management, or technical issues by
changes in the way federal agencies buy goods and services. The        NOAA’s Acquisition and Grants Office and NWS, and that NWS
intent was to reduce the time and money spent on purchasing and        paid for defective equipment. These deficiencies resulted in an
to improve the efficiency of the process. Commerce now must            estimated increase in contract costs of $4.5 million and purchase
focus on effectively managing the acquisition processes those          of a product that may not be the best choice for NEXRAD.
initiatives fostered—balancing the desire to streamline the
                                                                       Our review of a NIST contract using simplified acquisition
                                                                       procedures for evaluating and soliciting commercial items
                                                                       revealed weaknesses in the procurement process. Among them,
3
  After our report was published, USPTO further revised its system
inventory, reducing the number of systems to 18.
                                                                       an error in citing the relevant procurement law caused some



September 2003/Semiannual Report to Congress                                                                                              5
Major Challenges for the Department



confusion and, if applied, could have resulted in unfair penalties   industry, developed the Seven Steps to Performance-Based
being assessed to certain offers. Also, an incomplete explanation    Service Acquisition guide. Similarly, the President’s Council on
in the combined solicitation document denied offerors full           Integrity and Efficiency published A Practical Guide for
information about the rules governing the procurement. In            Reviewing Government Purchase Card Programs (see September
response to our review, NIST officials agreed to improve their       2002 Semiannual Report, page 59) to ensure the integrity and
internal quality assurance program, develop supplemental policy      prudent use of the purchase card by federal cardholders.
and guidance, and provide training to their acquisition workforce
(see page 32).                                                       During this semiannual period we issued our final audit report on
                                                                     the purchase card program at NOAA’s Environmental
                                                                     Technology Laboratory, in Boulder, Colorado (see page 29).
PURCHASE CARD PROGRAM                                                While we noted a number of weaknesses in internal controls and
                                                                     instances of noncompliance with the Commerce Acquisition
In response to increased scrutiny from this office, Congress, and    Manual, we found no fraud or material misuse. Many of the
OMB, and in light of Commerce’s increasing use of purchase           internal control weaknesses identified in this review were
cards, the Office of Acquisition Management is implementing a        previously reported (see March 2000 Semiannual Report, page
purchase card improvement plan that includes mandatory               60), but had remained unresolved. NOAA agreed with our
refresher training for all cardholders and approving officials.      recommendations and described actions planned or taken to
Under the auspices of the Chief Financial Officer and Assistant      implement them.
Secretary for Administration, an intradepartmental, cross-
functional team was formed to evaluate options to further
strengthen the Department’s purchase, travel, and fleet card         MAJOR CONSTRUCTION AND
programs. In addition, OAM, along with other agencies and            RENOVATION PROJECTS

                                                                     Effective management of contracts for construction and/or
                                                                     renovation of Commerce facilities is a critical challenge for the
                                                                     Department because of the numerous inherent risks involved in
                                                                     planning and managing contracts for large, costly, and complex
                                                                     capital improvement and construction projects. Departmental
                                                                     leadership and OIG oversight are needed to maximize
                                                                     Commerce’s return on its investment in these projects. Detecting
                                                                     and addressing potential problems during the developmental
                                                                     stages rather than after a project is begun or completed saves time
                                                                     and money. For this reason, we continue to actively monitor the
                                                                     progress of the Department’s current and planned contracts for
                                                                     construction projects.

                                                                     As part of that effort, we are currently reviewing USPTO’s
                                                                     progress on the construction of its new headquarters complex
                                                                     in northern Virginia (see Challenge 3, page 8). In addition to
                                                                     USPTO’s buildings, the Department has plans for numerous
                                                                     major4 renovation and construction projects:
                                                                         ■   NOAA has 20 projects scheduled or in process including
                                                                             a Marine and Environmental Health Research Laboratory
                                                                             in South Carolina, a Center for Weather and Climate
                                                                             Prediction in College Park, Maryland, and a satellite
                                                                             operations facility in Suitland, Maryland.
                                                                         ■   The National Institute of Standards and Technology
                                                                             (NIST) will continue its multimillion-dollar program to
                                                                             upgrade existing laboratories in Gaithersburg, Maryland,


                                                                     4
                                                                      According to the U.S. Department of Commerce’s Office of Real Estate
                                                                     Policy and Major Programs, “major” projects are those costing $2.3
                                                                     million or more.



6                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                               Major Challenges for the Department




Construction of NIST’s Advance Measurement Laboratory, as of September 2003, is shown in the photo above. The artist’s rendition
shows what the mostly underground facility will look like on completion.

Source: NIST’s Advanced Measurement Laboratory web site (http://aml.nist.gov/), accessed November 2003.




September 2003/Semiannual Report to Congress                                                                                   7
Major Challenges for the Department



         and Boulder, Colorado, and to complete construction of            Our office is currently auditing USPTO’s trademark application
         the Advanced Measurement Laboratory building in                   process as well as its efforts to reduce trademark application
         Gaithersburg and a central utilities plant in Boulder.            pendencies. We are also performing an evaluation of patent
         NIST also plans to install a perimeter security fence at          examiner production goals, awards, and performance appraisal
         the Boulder site.                                                 plans to determine whether they maximize production and reduce
     ■   Two buildings will be constructed for Census at its               patent pendency. We recently completed a review to follow up on
         Suitland, Maryland, headquarters.                                 complaints regarding patent processing (see page 36).
     ■   Commerce is planning to modernize its headquarters, the           As part of our effort to monitor USPTO operations, we are
         Herbert C. Hoover Building in Washington, D.C. A                  currently reviewing progress on the construction of the agency’s
         Renovation Program Office has been established to plan            new headquarters complex in Alexandria, Virginia. Construction of
         and monitor this project.                                         USPTO’s state-of-the-art office complex is one of the federal
                                                                           government’s largest real estate ventures. When completed in
                                                                           2005, the five-building complex will consolidate the majority of
                                                                           the USPTO employees and contractors currently scattered among
CHALLENGE 3                                                                18 buildings in Crystal City, Virginia. With construction well under
                                                                           way, USPTO must monitor progress to help ensure the project
                                                                           stays on schedule and to carefully implement the relocation of its
SUCCESSFULLY OPERATE THE U.S.
                                                                           facilities to minimize costs and adverse effects on operations,
PATENT AND TRADEMARK OFFICE                                                employees, patent and trademark applicants, and the public. We are
AS A PERFORMANCE-BASED                                                     conducting a follow-up review of USPTO’s management of this
ORGANIZATION                                                               project, looking at construction costs as well as issues we identified
                                                                           during the project’s planning and design phases, such as space
As a performance-based organization,5 USPTO has not only                   planning and allocation, relocation strategies, and actual versus
expanded control over its budget allocations and expenditures,             target costs and completion schedules.
personnel decisions and processes, procurement, and information
technology operations, it also has broader responsibility for              We view the successful operation of USPTO as a performance-
managing its operations more like a business.                              based organization as being critical to its success and ability to
                                                                           address other challenges we have identified in recent years.
In response to concerns of its stakeholders USPTO, in June
2002, issued its 5-year, 21st Century Strategic Plan. The plan
was intended to help the agency overcome the challenges
accompanying its transition to performance-based operations—               CHALLENGE 4
successfully develop necessary personnel policies; establish
procurement and administrative policies as well as performance-
                                                                           CONTROL THE COST AND
oriented processes and standards for evaluating cost-
effectiveness; and, simultaneously, meet its performance goals             IMPROVE THE ACCURACY OF
under the Government Performance and Results Act (GPRA) in                 CENSUS 2010
addition to the timeliness standards of the American Inventors
Protection Act.                                                            Few Commerce activities have more ambitious goals, higher
                                                                           costs, or more intensive resource requirements than the
In February 2003 USPTO revised this plan. According to the                 constitutionally mandated decennial census. And few are
agency, it is now more aggressive and far-reaching and provides            therefore more deserving of the scrutiny of this office.
a roadmap for major changes in patent and trademark processes,
including steps to (1) move to a paperless environment and                 This decade marks the third in the tenure of the Commerce Office
promote e-government, (2) enhance employee development, (3)                of Inspector General in which we will closely monitor and
explore competitive sourcing, and (4) improve and maintain                 evaluate the Census Bureau’s plans and preparations for
quality assurance. The plan also calls for the agency to work with         conducting its decennial population count. Our goal, as always, is
worldwide intellectual property offices to create a global                 to support and enhance its readiness by identifying problems
framework for enforcing intellectual property rights.                      early on, offering solutions, and informing the decision-making
                                                                           process at all levels—bureau, departmental, and congressional.
5
  The American Inventors Protection Act of 1999 established the U.S.
                                                                           With each decade, the decennial becomes more costly, complex,
Patent and Trademark Office as a performance-based organization, giving
it greater flexibility and independence to operate more like a business.   and challenging. Over the course of the three that this office has



8                                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                                 Major Challenges for the Department



monitored, for example, costs of $1 billion in 1980 rose to $2.6   plan that addressed cost containment and systems life-cycle
billion in 1990, and to $6.5 billion in 2000. For 2010, Census     development (see March 1985 Semiannual Report to Congress,
estimates the cost will be between $10 and $12 billion.            page 18). In 1991 we urged the Department to seek sufficient
                                                                   funding for fiscal years 1992 through 1996 to support early
Much has changed in the methods and technologies for               planning for Census 2000 (see March 1991 Semiannual Report
decennial census taking during our watch, and the population       to Congress, page 8). However, the bulk of funding and a final
has grown and diversified dramatically. But the primary            decision on the design did not come until 1999. To contain costs,
weaknesses we have noted have remained the same and are at         the Department originally proposed sending enumerators to
least partially responsible for the ever-increasing decennial      only a sample of households that did not return census forms.
expenditures: insufficient planning and upfront funding for an     This proposal was ultimately disallowed by the Supreme Court
operation that by its very nature requires long-term vision and    in January 1999. Surprisingly, given the controversy
development and ongoing testing at key points along the way.       surrounding the use of sampling, the bureau had done little
We advised the Department of these weaknesses as we                contingency planning and thus needed a huge infusion of
monitored the decennial process, recommending in 1984 that         resources to make it possible to visit 50 percent more
planning for the 1990 census be reported as a major internal       nonresponding households than originally anticipated and to
control weakness until the Census Bureau formulated a master       process this additional data. Numerous operational and accuracy


             OIG RECOMMENDATIONS FOR IMPROVING THE DECENNIAL CENSUS
   1. Reach early consensus on the 2010 design to facilitate effective planning and obtain sufficient funding. Delays
      in finalizing the Census 2000 design and obtaining needed funding left insufficient planning, developing, and
      testing time for many key components.
   2. Produce accurate, complete address lists and maps. The bureau's master address file (MAF) and associated
      mapping system (Topologically Integrated Geographic Encoding and Referencing, or TIGER) contained a
      higher-than-acceptable level of unreliability, which meant too many forms and too many enumerators could not
      reach the intended households.
   3. Conduct a carefully targeted and aggressive public awareness campaign. The bureau's efforts to increase public
      awareness of and participation in Census 2000 were successful, enabling the bureau to achieve a response rate
      of 67 percent—6 percentage points beyond the projected rate of 61 percent. Census needs to further refine its
      public outreach program to achieve even higher rates in 2010.
   4. Strengthen quality control of nonresponse follow-up. Instances of falsified and questionable data in Census
      2000 required costly reenumeration and undermined confidence in the overall census results.
   5. Implement clear policies and guidance for managing temporary staff. The logistics of hiring, training, and
      supervising nearly 1 million temporary workers requires strong management policies and procedures.
   6. Determine whether sampling has a role beyond measuring coverage. Sampling has been a contentious issue in
      the past two decennials, and initial plans to use it to improve coverage were ultimately overruled.
   7. Implement rigorous system and software development processes and effective information security measures.
      The bureau's approach to systems and software development for Census 2000 provided inadequate controls,
      insufficient testing, and poor or no documentation, all of which led to inefficiency and disruptive errors.
   8. Upgrade and maintain contracting and program management expertise. The bureau lacked adequate in-house
      management skills to oversee decennial contracts and contractor-operated programs.
   9. Generate timely and accurate management and operational information. The bureau lacked procedures for
      evaluating operations and thus failed to identify improprieties in a timely manner. Nor did it have expeditious
      methods for collecting and disseminating information to stakeholders.
  10. Mitigate potential disruptions and distractions to the work environment and workforce. The bureau must have
      plans to counter the potentially negative impacts of two major events: the possible retirement of roughly half of
      the bureau's decennial staff during this decade, and the anticipated move to new facilities in 2008—the year of
      the dress rehearsal for Census 2010.
  Source: Improving Our Measure of America: What Census 2000 Can Teach Us in Planning for 2010. U.S. Department of
  Commerce Office of Inspector General. Report No. OIG-14431, Spring 2002.




September 2003/Semiannual Report to Congress                                                                                     9
Major Challenges for the Department



issues reported during Census 2000 were a direct result of these     rehearsal. We will continue to closely monitor this and other
late-stage events.                                                   aspects of systems and software acquisition and development
                                                                     throughout the decade, as well as the bureau’s actions to
The Census Bureau has committed to making 2010 different and         ameliorate any problems we identify.
has already begun working toward that end. In September 2002 it
adopted a reengineered framework for 2010, proposing to collect      We also concluded work related to the 2000 census that is
and tabulate long-form data throughout the decade via the            instructive for 2010, in that it again underscores the need for
American Community Survey; enhance and improve address lists         vigilant management oversight of census operations in order to
and geographic information databases; and institute a program of     contain costs. Prompted by information from the General
early planning, development, and testing (see Census Milestones      Services Administration (GSA), we audited the bureau’s use of
schedule below) for a short-form-only census. The bureau             and payments for airfreight services to deliver census materials in
believes these redesigned processes will improve the relevance       the field. We identified a failure to follow proper procedures for
and timeliness of long-form data; reduce operational risk; improve   monitoring and approving charges. As a result, the bureau
the accuracy of census data; and contain costs. The three-pronged    overpaid some $2 million for these services during an 11-month
strategy is aggressive and intended to capitalize on the latest      period (see page 20).
technology, such as hand-held global positioning system devices
and the Internet.                                                    Our focus will intensify in subsequent semiannual periods as the
                                                                     bureau’s plans and preparations continue to unfold; and we have
Our work assessing the bureau’s efforts to achieve its               set a broad agenda for review that will cover such areas as the
reengineering goals is under way, against the backdrop of our        following:
recommendations for improving the 2010 decennial in light of             ■   completeness of the plan for the 2010 census as well as
the Census 2000 experience (see OIG Recommendations, page 9)                 the coordination and integration of its elements;
and in consideration of the concerns of Congress, the General
Accounting Office, the National Academy of Sciences, and other
                                                                         ■   systems/software acquisition, development, testing
oversight organizations.                                                     and security;
                                                                         ■   correction of address and map information;
                                                                         ■   field tests in 2004 and 2006;
    CENSUS 2010 MAJOR MILESTONES                                         ■   planning for incorporation of the American
                                                                             Community Survey;
  2002 Begin planning and develop method for 2004 test                   ■   approach to measuring data quality;
  2004 Conduct census test (methodology)                                 ■   conduct of the 2008 dress rehearsal;
  2005 Analyze results and refine methodology                            ■   impact of construction and occupancy of Census’ new
  2006 Conduct census test (systems integration)                             headquarters on decennial scheduling; and
  2007 Analyze results, refine/integrate systems/methods                 ■   implementation of decennial operations beginning
  2008 Conduct dress rehearsal                                               in 2009.
  2009 Begin to implement operations
  2010 Conduct census
                                                                     We will report on the bureau’s progress in these areas as its work
                                                                     proceeds through the decade.
  Source: Census Briefing to the National Academy of
  Sciences, September 2002.

                                                                     CHALLENGE 5
During this semiannual period we assessed the bureau’s progress
in modernizing its MAF/TIGER processing system (see page 19).
                                                                     INCREASE THE EFFECTIVENESS OF
The successful redesign of this system is crucial to improving       MARINE RESOURCE
Census 2010 operations, and must be ready to support the             MANAGEMENT
decennial dress rehearsal in 2008. We are concerned that the
bureau’s late start in establishing a strong project management      The National Marine Fisheries Service (NMFS) must balance
structure and its lack of a plan for accelerating its software       two competing interests: (1) promote commercial and
improvement process may delay completion of the new system,          recreational fishing as vital elements of our national economy
preventing it from being thoroughly tested before the dress          and (2) preserve populations of fish and other marine life. Eight



10                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                     Major Challenges for the Department



regional fishery management councils, along with NMFS, are            noncompliance with or violations of trade agreements,
responsible for developing plans for governing domestic fisheries     inadequate intellectual property protection, and other
in federal waters. Their combined goal is to prevent overfishing,     impediments to fair trade. Commerce must ensure that its export
rebuild overfished stocks, and protect, restore, and promote the      promotion assistance and trade compliance and market access
long-term health and stability of U.S. fisheries.                     efforts adequately serve U.S. exporters, and that its import
                                                                      assistance helps eliminate unfair competition from imports priced
Developing conservation and management measures requires              at less than fair market value or subsidized by foreign
collecting, analyzing, and reporting demographic information          governments.
about fish populations via stock assessments. These reports are a
key element of the fishery management process; they are used to       To help meet the challenges in highly competitive world markets,
determine whether additional regulations are necessary to rebuild     Commerce and its International Trade Administration (ITA) work
fish stocks or whether greater fishing opportunities can be           with the Office of the U.S. Trade Representative, the
allowed. Because of their potential impact on commercial and          Departments of State and Agriculture, and numerous other
recreational fishing, these assessments are often controversial,      federal agencies to monitor and enforce trade agreements. The
and the methods used to create the estimates typically undergo        number and complexity of those agreements have increased
intense scrutiny by fishers and conservation groups.                  substantially in recent years, and the Secretary of Commerce has
                                                                      made monitoring and enforcing trade agreements a top priority
During this semiannual period we reviewed data collection             for ITA and the Department as a whole. Commerce received
processes and equipment an NMFS science center used to survey         additional funding for trade compliance activities in FY 2001 and
New England groundfish, specifically addressing concerns about        redirected other resources so that it could place additional
the calibration of sample-collection equipment (see page 30).         officers at select overseas posts and in Washington to specifically
                                                                      monitor market access and compliance issues. A recent OIG audit
In addition, OIG recently evaluated the enforceability of fishing     found that with the increased funding, ITA’s Market Access and
regulations and the enforcement methods used by NMFS’ Office          Compliance unit was able to effectively recruit and hire sufficient
for Law Enforcement (OLE) and found many of the regulations           staff for critical trade and compliance positions (see March 2003
are too complex and lack sufficient clarity for viable                Semiannual Report, page 20).
enforcement. We also found that NMFS’ joint enforcement
initiative with coastal states and territories is beneficial in       Commerce has numerous mechanisms to monitor and help
supplementing federal enforcement efforts (see March 2003             enforce U.S. trade agreements and review trade complaints from
Semiannual Report, page 25).                                          a variety of sources. When warranted, its Trade Compliance
                                                                      Center forms a compliance team to follow up on complaints and
We are currently reviewing NMFS’ observer program. Observers          bring them to satisfactory conclusion, although we found that the
deployed on U.S. commercial fishing vessels collect catch             center needs to improve its coordination within ITA. (See page 50
statistics, monitor bycatch and protected species interactions, and   of our March 2002 Semiannual Report to Congress for an
perform biological sampling to obtain information for use by          inspection report on the Trade Compliance Center.) In addition,
NMFS as well as industry and academic researchers. Their              ITA’s overseas U.S. & Foreign Commercial Service (US&FCS)
reported data is used to supplement research and aid in the           offices and other operating units perform a substantial amount of
management of living resources. We are reviewing how NMFS             market access and trade compliance work. Overall ITA’s
ensures data quality, and whether the data is meeting research and    approach to trade compliance and market access is to engage the
fishery management needs. We expect to report our findings in         issue at the working level wherever possible—avoiding formal
the next issue.                                                       dispute settlement structures such as the World Trade
                                                                      Organization, which can take years to resolve trade
                                                                      disagreements. The Department also pursues important policy
                                                                      issues—including intellectual property rights protection,
                                                                      standards development, trading rights, and distribution
CHALLENGE 6                                                           services—in government-to-government negotiations. For
                                                                      example, the Secretary and ITA officials recently met with senior
INCREASE FAIR COMPETITION IN                                          Chinese officials to press for full implementation of trade
INTERNATIONAL TRADE                                                   agreements, market access, and a level playing field for U.S.
                                                                      products and services.
To compete effectively in today’s global marketplace, many U.S.
companies need help identifying and taking advantage of new or        Commerce’s extensive network of overseas US&FCS offices and
expanded export market opportunities as well as addressing            domestic Export Assistance Centers also identifies specific
unfair trade practices, trade disputes with foreign firms,            export market opportunities or trade leads for U.S. companies,



September 2003/Semiannual Report to Congress                                                                                        11
Major Challenges for the Department



especially small and medium-size firms that are new to exporting     Agency and the Federal Bureau of Investigation, to report to
or looking to expand their overseas markets. During this             Congress by March 30, 2000, and annually until the year 2007,
semiannual period, we reviewed the operations of the US&FCS          on the adequacy of export controls and counterintelligence
office in Greece to assess its effectiveness in assisting U.S.       measures to prevent the acquisition of sensitive U.S. technology
companies increase sales in the Greek market (see page 22). This     and technical information by countries and entities of concern.
review was similar to one we recently completed in Turkey (see       In addition, NDAA for FY 2001 requires the IGs to discuss in
March 2003, page 19), but the review in Greece was specifically      their annual interagency report the status or disposition of
requested by the U.S. ambassador to that country who had             recommendations made in earlier reports submitted in
concerns about the adequacy of management controls in place.         accordance with the act. To date, we have completed four
We also are currently reviewing US&FCS’ domestic network of          reviews of export controls in compliance with the act as well as
U.S. Export Assistance Centers.                                      three separate follow-up reports. Together with the other IGs, we
                                                                     have also issued four interagency reports on export controls for
We will continue our oversight of the Department’s promotion of      dual-use items and munitions.
U.S. exports and also look at Commerce’s administration of the
antidumping and countervailing duty regulations and other
efforts to track, detect, and combat unfair competition to U.S.      CURRENT REVIEW OF
industry in domestic markets.                                        DEEMED-EXPORT CONTROLS

                                                                     To comply with NDAA’s 2004 requirement, the IGs6 agreed to
                                                                     conduct an interagency review to assess whether the current
CHALLENGE 7                                                          deemed-export control laws and regulations7 adequately protect
                                                                     against the illegal transfer of controlled U.S. technologies and
                                                                     technical information by foreign nationals to countries and
ENHANCE EXPORT CONTROLS                                              entities of concern. Our efforts will focus on the effectiveness of
FOR DUAL-USE COMMODITIES                                             the dual-use, deemed-export regulations and policies, including
                                                                     their implementation by BIS, and on compliance with the
The effectiveness of export controls is an ongoing issue.            regulations by U.S. industry (particularly federal contractors) and
Advancing U.S. national and economic security interests              academic institutions. We will also follow up on prior OIG
through export controls is a significant challenge for the parties   findings and recommendations from our March 2000 report,
involved, particularly for Commerce’s Bureau of Industry and         Improvements Are Needed in Programs Designed to Protect
Security, which oversees the federal government’s export             Against the Transfer of Sensitive Technologies to Countries of
licensing and enforcement system for dual-use commodities            Concern (IPE-12454-1), as appropriate.
(goods and technologies that have both civilian and military
uses). Strengthening dual-use export licensing and enforcement
requires new, comprehensive legislative authority to replace the     FOCUSED PRIORITIES
expired Export Administration Act of 1979 and appropriately
address current export control needs and realities. Passed during    An important element needed to enhance export controls remains
the Cold War, the act sought to prevent the export of critical       enactment of a new Export Administration Act, while BIS, the
goods and technologies to Communist bloc countries. In today’s       administration, and Congress (1) work to target federal licensing
political climate, hostile countries and terrorist groups seeking    and enforcement efforts on exports that present the greatest
weapons of mass destruction and the systems to deliver them          proliferation and national security risks and (2) streamline or
pose new threats to global security and U.S. foreign policy goals.   eliminate controls that unnecessarily hamper trade and do not
Legislation is needed to address these threats as well as to         augment national security or foreign policy concerns. We will
bolster BIS’ regulatory authority, strengthen penalties for          continue to monitor BIS’ efforts to improve dual-use export
violations, and demonstrate America’s commitment to
maintaining strong export controls while encouraging other           6
                                                                      This year’s review includes the participation of the Department of
countries to do the same.                                            Homeland Security’s OIG.

Given the importance of export controls to national security, we     7
                                                                       According to the Export Administration Regulations, any release to a
have devoted considerable attention to the challenges facing         foreign national of technology or software subject to the regulations is
BIS. The National Defense Authorization Act (NDAA) for               deemed to be an export to the home country of the foreign national
Fiscal Year 2000, as amended, directed the inspectors general of     (unless the foreign national is a U.S. permanent resident). These exports
the Departments of Commerce, Defense, Energy, and State, in          are commonly referred to as “deemed exports,” and may involve the
                                                                     transfer of sensitive technology to foreign visitors or workers at U.S.
consultation with the directors of the Central Intelligence
                                                                     research laboratories and private companies.



12                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                       Major Challenges for the Department



controls through the annual reviews required by the National         making progress on many of these fronts, but the challenge is
Defense Authorization Act.                                           massive. We will continue to monitor its efforts and report our
                                                                     findings accordingly.


CHALLENGE 8
                                                                     CHALLENGE 9
ENHANCE EMERGENCY
PREPAREDNESS, SAFETY, AND                                            STRENGTHEN FINANCIAL
SECURITY OF COMMERCE                                                 MANAGEMENT CONTROLS
FACILITIES AND PERSONNEL                                             AND SYSTEMS

Since our March 2002 report on the status of emergency               The Chief Financial Officers Act of 1990, the Government
preparedness and security programs at a cross-section of             Performance and Results Act of 1993, the Government
Commerce facilities in the Washington, D.C., area and across the     Management Reform Act of 1994, and the Federal Financial
nation, the Department has made significant improvements,            Management Improvement Act of 1996 require that agencies
although more needs to be done. Heightened security requires a       prepare information needed by Congress, agency executives, and
variety of measures: infrastructure risk assessments, emergency      the public to assess the management of federal programs and
backup sites, upgraded physical security, and employee               operations. An entity’s financial position and results of
awareness and training, to name a few. With this complexity of       operations, presented in findings of audits of the agency’s
measures, Commerce will have to regularly revisit its procedures     financial statements, help determine whether an agency’s
for ensuring the safety and security of its employees and            financial management systems comply with federal
operations, and modify them as needed.                               requirements.

In its efforts to enhance security, thus far this year Commerce      The Department as a whole has made substantial improvements
reportedly                                                           in financial management; however, maintaining a clean audit
                                                                     opinion remains a major challenge, especially under the
    ■   increased in-house security expertise to allow for close
                                                                     accelerated financial reporting dates mandated by the Office of
        coordination with the Department of Homeland Security,
                                                                     Management and Budget (OMB). On its FY 2002 consolidated
        the FBI’s Joint Terrorism Task Force, and various
                                                                     financial statements, the nonfederal auditors gave the
        intelligence agencies;
                                                                     Department an unqualified (clean) opinion—the fourth
    ■   created an emergency operations center—a central             consecutive year for this accomplishment despite continuing
        location for receiving critical information from other       obstacles including the absence of a single, integrated financial
        emergency centers and coordinating necessary responses       management system. Although the Department resolved most of
        during and after an emergency event;                         the financial management and reporting weaknesses noted in the
    ■   completed some continuity of operation plan (COOP)           previous year’s audit, the audit of the Department’s FY 2002
        exercises to help improve communication and operations       statements identified two reportable conditions (one of which is
        capabilities; and                                            considered a material weakness8) and several instances of
    ■   modified occupant emergency plans (OEP) to                   noncompliance with laws and regulations, all of which are repeat
        incorporate shelter-in-place guidance, revised procedures    findings (see March 2003 Semiannual Report to Congress, page
        addressing special-needs individuals, and conducted          34). We retained an independent certified public accounting firm
        periodic tests and assessments of emergency                  to audit the Department’s consolidated financial statements for
        preparedness capabilities and related systems.               FY 2003 and review the adequacy of information technology
                                                                     security controls over financial systems. Their results will be
                                                                     presented in our March 2004 Semiannual Report to Congress.
Given the size of its workforce and the geographical spread of its
481 facilities nationwide and more than 150 locations overseas,      The Department has made significant progress in implementing
complying with recent security-related guidance is a complex,
resource-intensive undertaking for Commerce. In recent
inspections of overseas posts operated by the U.S. and Foreign       8
                                                                      Material weaknesses are serious flaws in the design or operation of an
Commercial Service, we identified the need for more timely           internal control component that increase the risk that errors, fraud, or
security upgrades, improved oversight of security operations, and    noncompliance in material amounts may occur and not be readily
better management of resources. We believe Commerce is               detected.




September 2003/Semiannual Report to Congress                                                                                           13
Major Challenges for the Department



the Commerce Administrative Management System (CAMS).9                   Government Performance and Results Act of 1993 was designed
The Bureau of the Census and NOAA use CAMS as their                      to ensure the availability of such data by mandating that agencies
financial system of record. When fully deployed in 2003 CAMS             set goals for program performance and report outcomes
will be the single system of record for Census, NIST, NOAA,              measured against those goals. As the government moves toward
and 10 of the Department’s operating units whose accounting              integrating budget and performance information and using
functions are handled by either NIST or NOAA. NOAA services              performance data to make funding decisions, the validity of
the Bureau of Industry and Security. NIST services the                   reported performance results will be increasingly important.
Bureau of Economic Analysis (BEA), Economic Development
Administration (EDA), Economics and Statistics Administration            Although we believe the Department has made progress toward
(ESA), Minority Business Development Agency (MBDA),                      meeting the challenge of measuring its performance, significant
National Telecommunications and Information Administration               opportunities for improvement remain for meeting GPRA and
(NTIA), Technology Administration (TA), Office of the                    other reporting requirements. One such opportunity concerns
Secretary, Office of Computer Services (OCS), and Office of              data quality: Commerce should more clearly articulate the level
Inspector General.                                                       of reliability that can be placed on the performance data it
                                                                         provides in its annual Performance & Accountability Report.
Three of the Department’s operating units will not use CAMS—
International Trade Administration, U.S. Patent and Trademark            Another opportunity for improvement involves performance
Office, and National Technical Information Service. These will           measures: our audits of several such measures used by
submit data, along with other units, into a Commerce-wide database       departmental units over the past few years have identified the
that serves as the source for the Department’s consolidated financial    need for stronger internal controls to ensure accurate reporting
reports. The Department expects that CAMS, in conjunction with           of performance data and improved explanations and disclosures
the database, will bring Commerce into compliance with federal           of results. For example, procedures should be established to
financial systems requirements, including that for a single,             ensure that (1) reported information is reconciled against
integrated financial management system.                                  supporting data and (2) only appropriate data is included in
                                                                         performance results.

                                                                         These issues again emerged in our recent audit of selected
                                                                         performance measures at NOAA (see page 28). We are concerned
CHALLENGE 10                                                             that—for the measures we evaluated—NOAA needs to (1)
                                                                         improve internal controls, (2) restate data that was incorrectly
CONTINUE TO IMPROVE THE                                                  reported in the past, (3) provide additional performance measures
DEPARTMENT’S STRATEGIC                                                   to more clearly articulate results, (4) provide additional
PLANNING AND PERFORMANCE                                                 disclosures and explanations of performance results, and (5)
MEASUREMENT IN ACCORDANCE                                                assess the value of certain measures to determine whether they
                                                                         should be revised or dropped.
WITH THE GOVERNMENT
PERFORMANCE AND                                                          We will continue to evaluate performance measurement and
RESULTS ACT                                                              reporting at NOAA and other bureaus and, as warranted, make
                                                                         recommendations to the Department and its operating units
Congress and agency managers require relevant performance                regarding the accuracy, appropriateness, reliability, and
measures and credible performance data to effectively fulfill their      usefulness of accumulated performance data.
oversight responsibilities with respect to federal programs. The




9
  CAMS is a software package based on a commercial off-the-shelf
accounting system application that was extensively modified and
substantially augmented with capabilities to support both departmental
accounting and financial management needs as well as individual
Commerce unit requirements.



14                                                                                  U.S. Department of Commerce/Office of Inspector General
   Department of Commerce
   Organization Chart




September 2003/Semiannual Report to Congress   15
                       BUREAU OF INDUSTRY
                       AND SECURITY
                               SOME ADMINISTRATIVE FINE-TUNING WOULD

T
        he
        Bureau of
                                        ENHANCE OPERATIONS AT OFFICE OF
        Industry and                          EXPORT ENFORCEMENT
Security is primarily responsible
for administering and enforcing the                 Our review of export enforcement activities at the Bureau of Industry and Security
nation’s system for controlling exports                (BIS), detailed in our March 2003 Semiannual Report to Congress (page 12),
of sensitive dual-use goods and                          uncovered a number of administrative issues at the bureau’s Office of Export
technologies. BIS’ major functions include                 Enforcement (OEE) that, while outside the scope of our evaluation, are
formulating and implementing export control                  nonetheless important to the bureau’s sound and efficient functioning. We
policy; processing export license applications;               therefore detailed these matters, as follows, in a separate report to BIS’
conducting various policy, technical, and                      Under Secretary.
economic analyses; promulgating regulations;
conducting industry outreach; and enforcing the                   Confidential Funds. These funds, available to pay for informant
Export Administration Act and regulations. BIS’                    information, are rarely used for this purpose by the OEE field offices we
activities also include promoting federal initiatives and           visited. However, they are used for a variety of undercover activities
public-private partnerships across industry sectors to              that are not specifically delineated as either permissible or
protect the nation’s critical infrastructures. BIS is                impermissible in the authorizing guidance—OEE’s Special Agent
divided into two units:                                              Manual. We believe BIS should issue clearer guidance on the
                                                                     appropriate use and handling of confidential funds.
Export Administration implements U.S. export control
and nonproliferation laws and policies through export                Vehicle Inventories. Field offices are supposed to have one leased
licensing, commodity classifications, and advisory                   vehicle per agent. They are not permitted to lease vehicles for
opinions; technical, economic, foreign availability, and            prospective employees and must relinquish vehicles for a vacated
policy analyses; promulgation of regulations; and                   position that is not filled within 2 months. However, we found that OEE
industry outreach. It also conducts various defense                field offices had surplus vehicles, representing excess leasing
industry activities and enforces industry compliance              expenditures of at least $106,908 for fiscal years 2000-2002.
with arms control treaties.
                                                               Building Security. Each field office differed in its physical security
Export Enforcement participates in reviews of                 measures, and lacked certain safeguards that we believe to be essential.
export license applications and conducts
criminal and administrative investigations                 Office Locations. BIS did not have a clear, mission-related rationale for its
relating to the export control portions of               choice of locations for OEE’s eight field offices, but has developed such criteria
the Export Administration Act and                      to support proposals for new sites—degree of risk for export violations and dollar
regulations. It also administers and                volume of exports passing through the area. To ascertain whether existing field
enforces the antiboycott                         locations are the most appropriate for accomplishing BIS’ enforcement mission, the
provisions of the act and                     bureau should evaluate these sites against the same criteria. (Office of Inspections and
regulations.                              Program Evaluations: IPE-15155-2)




16                                                                                  U.S. Department of Commerce/Office of Inspector General
                       ECONOMIC DEVELOPMENT
                       ADMINISTRATION
                           REVOLVING LOAN FUNDS

T
        he
        Economic                      EDA’s Economic Adjustment Program provides, among other things, grants to capitalize revolving
        Development                       loan funds (RLFs). Currently more than 600 RLFs are operating throughout the country, with a
Administration was                            total capital base of about $1 billion. This includes EDA’s share of the initial investment and
established by the Public Works                  matching funds contributed by state and local governments, nonprofit organizations, and
and Economic Development Act of                     other eligible recipients that operate RLFs. The program focuses on communities and
1965 to generate new jobs, help                       regions that have experienced or are threatened by serious structural damage to their
retain existing jobs, and stimulate                     underlying economic base. The purpose of an RLF is to leverage other public and
commercial and industrial growth in                       private investment in key sectors of the local economy and to stimulate
economically distressed areas of the United                 employment for the local workforce. RLFs offer loans to local businesses that
States. EDA continues to fulfill this mission                otherwise cannot secure sufficient private financing, providing a continuous
under the authority of the Economic                           infusion of economic development funds into the affected community.
Development Administration Reform Act of
1998, which introduced the concept of                           Because RLFs manage cash and other liquid assets, they are particularly
Comprehensive Economic Development                               susceptible to fraud, waste, and abuse if not adequately managed and
Strategies, a local planning process designed to                  monitored. Recognizing the sizable federal investment in these funds, we
guide the economic growth of an area. Based on                    have worked cooperatively with EDA over the past 2 years to identify high-
these locally and regionally developed strategies,                risk investments and have conducted a series of RLF audits targeting
EDA works in partnership with state and local                     projects on the basis of a variety of factors that typically suggest heightened
governments, regional economic development                        vulnerability. Such factors include minimal use of grant funds, large
districts, public and private nonprofit                           uncommitted cash balances, and lack of single audit coverage. Our audits
organizations, and Indian tribes to help distressed               have identified several recurring issues, the most serious of which are
communities address problems associated with                     ■ unneeded funds from recapitalization grants,
long-term economic deterioration and recent,
                                                                ■ excessive cash reserves,
severe economic dislocations, including
recovery from the economic impact of natural                   ■ inappropriate loans,

disasters, the closure of military installations             ■ inadequate accounting for RLF assets (cash and loans), and
and other federal facilities, changes in trade
                                                            ■ inadequate audit coverage.
patterns, and the depletion of natural
resources. EDA provides eligible
                                                        Based on findings in individual audits, we have made recommendations, as
recipients with technical assistance, as
                                                      appropriate, to recoup unused grant funds, remedy fiscal and administrative
well as grants for public works and
                                                    deficiencies, and ensure compliance with applicable laws and program requirements. In
economic development, planning,
                                                 all cases, EDA has required grant recipients to take prompt corrective action.
training and research, and
economic adjustment.
                                           Summarized below are the results of the two RLF audits we conducted this semiannual period,
                                       which include recommendations that more than $2.4 million of revolving loan funds be put to better
                                  use. EDA is reviewing the audit findings and recommendations to develop corrective action plans.

                      VIRGINIA RLF HAS ALMOST $1.5 MILLION IN EXCESS CASH RESERVES

In September 1980 EDA awarded a $500,000 Long-Term Economic Deterioration Implementation grant to a Virginia district
commission to capitalize a revolving loan fund. The grant required 25 percent in matching funds. Three subsequent grant amendments
brought the RLF’s total capitalization to $1,625,002 consisting of $1,250,000 in EDA funds and $375,002 of local funds. The RLF
was to be used to stimulate economic diversification and create permanent employment in three counties in south central Virginia.




September 2003/Semiannual Report to Congress                                                                                               17
Economic Development Administration



Our audit disclosed that the commission had almost $1.5 million     EXCESS CASH RESERVES AND
in excess cash as of April 2003 and had retained excess cash for    INEFFECTIVE MANAGEMENT AT
at least seven consecutive semiannual reporting periods. The        MONTANA RLF
excess funds demonstrated persistent noncompliance with the
capital utilization standard at 13 CFR §308.17(c) and is contrary   EDA awarded a Sudden and Severe Economic Dislocation
to RLF program objectives. The excess resulted from a lack of       Defense Adjustment grant of $1.5 million to a Montana
loan demand in previous years, although the commission recently     development authority in September 1996 to establish a revolving
identified possible uses for its RLF funds.                         loan fund. EDA recapitalized the grant by adding $750,000 in
                                                                    May 2000 and requiring an additional local match of $750,000.
To resolve the excess funds finding, we recommended that EDA’s
Philadelphia regional director require the commission to (1)        Our audit disclosed that the authority was not managing the RLF
deposit the $1,477,696 in excess funds into a separate interest-    effectively. As of September 30, 2002, the authority failed to
bearing account and remit the interest monthly to the U.S.          provide $286,500 of required matching funds, had $1,426,242 in
Treasury, (2) use the excess funds within 6 months to make direct   excess cash with no marketing plan or strategy to utilize it,
loans or loan guarantees in accordance with RLF program             maintained inadequate documentation for its loan portfolio, and
objectives, and (3) remit EDA’s share of any unused excess funds    failed to obtain audits conducted in accordance with the Single
remaining in the account after 6 months to the U.S. Treasury.       Audit Act.

Our audit also disclosed that the commission made $324,000 in       Based on these findings, we recommended that EDA’s Denver
improper payments from the fund including a $250,000                regional director require the authority to (1) provide the
disbursement to fund a non-RLF loan, charges for unsupported        remaining matching funds of $286,500 applicable to the grant,
management fees, and payments for unauthorized foreign travel,      (2) sequester $1,426,242 in excess cash reserves in an interest
alcoholic beverages, and entertainment. The commission              bearing account and remit to the U.S. Treasury the portion of the
subsequently repaid the $250,000 to the RLF. We recommended         interest earned on the account attributable to the grant, (3) use the
that EDA’s Philadelphia regional director require the commission    excess funds within 6 months in accordance with RLF program
to reimburse the RLF account for the remaining $74,000 in           objectives, (4) remit EDA’s share of any unused excess funds
improper payments and ensure that RLF personnel are familiar        remaining in the account after 6 months to the U.S. Treasury, (5)
with applicable federal cost principles. (Atlanta Regional Office   revise its RLF plan to develop effective marketing strategies, (6)
of Audits: ATL-15985)                                               establish and maintain adequate documentation for its loan
                                                                    portfolio, and (7) obtain audits conducted in accordance with the
                                                                    Single Audit Act for the two fiscal years ended June 30, 2003.
                                                                    (Denver Regional Office of Audits: DEN-15180)




18                                                                              U.S. Department of Commerce/Office of Inspector General
                        ECONOMICS AND STATISTICS
                        ADMINISTRATION
                            SLOW START FOR REDESIGN OF CENSUS 2010
                              ADDRESS/MAPPING SYSTEM INCREASES
     T
             he
             Economics          PERFORMANCE AND COST RISKS
             and Statistics
     Administration analyzes
                                               To conduct the decennial census and other statistical work, the Census Bureau developed
     economic developments, for-
                                                  and maintains the master address file (MAF) and the Topologically Integrated
     mulates policy options, and pro-
                                                    Geographic Encoding and Referencing (TIGER) databases. MAF is an inventory of
     duces a major share of U.S. gov-
                                                      address information covering an estimated 115 million residences and 60 million
     ernment economic and demographic
                                                        businesses and other structures. TIGER is a digital map containing the locations
     statistics. The Chief Economist moni-
                                                          and names of streets, rivers, railroads, boundaries, and other geographic features
     tors and analyzes economic develop-
                                                            and their geospatial relationship to each other and to MAF addresses.
     ments and directs studies that have a
     bearing on the formulation of economic
                                                              The complex, voluminous MAF and TIGER databases are essential to the
     policy. ESA has two principal agencies:
                                                               success of the bureau’s census and survey activities. However, the current
                                                                data contains an unacceptable level of inaccuracy, and the systems that
     Bureau of the Census is the country’s pre-
                                                                manage the data are cumbersome, outdated, and difficult to integrate with
     eminent statistical collection and dissemina-
                                                                 newer technology. The bureau has thus launched a major effort to redesign
     tion agency. It publishes a wide variety of sta-
                                                                 these systems and improve the data’s accuracy. Known as the MAF/TIGER
     tistical data about the nation’s people and
                                                                 Enhancement Program, this 8-year, roughly $500 million undertaking is
     economy, conducting approximately 200
                                                                 part of Census’ overall 2010 decennial census strategy to reduce operational
     annual surveys, in addition to the decennial
                                                                complexity and risks, contain costs, and improve results.
     census of the U.S. population and the decen-
     nial census of industry.
                                                               The computer and software upgrade portion of the enhancement program—
                                                              the MAF/TIGER Processing Environment Redesign—is crucial to the
     Bureau of Economic Analysis prepares,
                                                             bureau’s attainment of these goals, and is being developed in-house with the
     develops, and interprets the national
                                                            aid of contractors. The redesign will combine a standard, commercial off-the-
     income and product accounts (summa-
                                                           shelf database management platform with geographic information system
     rized by the gross domestic product),
                                                         computer products to support hand-held global positioning system devices for
     as well as aggregate measures of
                                                       field operations, Internet access for local governments, and faster response to
     international, regional, and
                                                     operational requests while simplifying error-prone operations, such as database
     state economic activity.
                                                   updates, and reducing training time for new MAF/TIGER programmers.

                                              To have this complex, technically challenging system thoroughly tested before the 2008
                                          dress rehearsal and within its estimated $50 million budget, Census must use a disciplined
                                       project management process that conforms with federal guidelines and accepted business
                                   practices,10 and have methodical software processes.

                      Our evaluation sought to determine whether Census has established and is following accepted processes for
               managing and developing the redesigned MAF/TIGER system. Our findings and recommendations were as follows:




10
  See the Clinger-Cohen Act of 1996; OMB Circular A-11 Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets; and, for
example, the Program Management Institute’s Program Management Body of Knowledge.




September 2003/Semiannual Report to Congress                                                                                            19
Economics and Statistics Administration



LATE START IMPLEMENTING PROJECT                                            Census officials attributed their slow start to understaffing and
MANAGEMENT PROCESS HAS                                                     other work priorities, but have since begun implementing more
INCREASED RISKS                                                            disciplined project management. We recommended that Census
                                                                           fill staffing needs for the redesign as quickly as possible and
Although the project had been under way for 1.5 years at the start         implement a comprehensive project management process.
of our evaluation, Census had not yet implemented a
comprehensive project management process (see figure)—it had
                                                                           TECHNICAL CHALLENGES WARRANT
                                                                           ACCELERATING SOFTWARE
                                                                           PROCESS IMPROVEMENT

                                                                           Because the bureau had no structured process for determining
                                                                           requirements, implementing software, conducting testing, and
                                                                           providing quality assurance for Census 2000, last minute system
                                                                           requirements and software changes were a way of life. This
                                                                           experience prompted the bureau in 2002 to implement a
                                                                           multiyear software process improvement program using the five-
                                                                           level Capability Maturity Model® (CMM®)12 for software,
                                                                           developed by the Carnegie Mellon Software Engineering
                                                                           Institute. Since the redesign and the software improvement
                                                                           program both started around the same time, the project’s initial
                                                                           activities did not benefit from improved software processes. The
                                                                           bureau is attempting to bring the redesign project up to speed
                                                                           with the more mature software processes envisioned by the
                                                                           model and thereby increase the likelihood that it will meet system
                                                                           requirements and cost and schedule projections. The current goal
                                                                           is to accelerate development and implementation of CMM® level

                                                                           CMM® LEVEL 2

                                                                                                                             Key
                                                                                Maturity                                     Process
                                                                                Level 2       Description                    Areas

                                                                                Repeatable    Basic project management       Requirements
                                                                                Project       processes are established        management
not established a management organization (the sponsor, review                  management    to track cost, schedule,       Software project
board, a full-time project manager, and key project team                        processes     and functionality. The           planning
members); or developed a comprehensive plan identifying the                                   necessary process
                                                                                              discipline is in place to      Project tracking
scope of work (i.e., the system’s requirements and architecture),                                                              and oversight
the strategy for building the system and all major intermediate                               repeat earlier successes
products, and the activities needed for project completion (the                               on projects with               Subcontract
work breakdown structure). It had not assigned baseline activity-                             similar applications.            management
level cost, schedule, or performance (C/S/P) parameters. Nor had                                                             Software quality
it implemented required controls such as earned value                                                                          assurance
management.11 In the absence of an effective management                                                                      Configuration
process, several initial project activities did not produce the                                                               management
results needed to proceed to the next stage of development and
had to be reworked.                                                        Source: Software Engineering Institute. The Capability Maturity
                                                                           Model: Guidelines for Improving the Software Process. ®
11
  Earned value management is an objective, quantitative technique for
measuring progress by obtaining reliable, timely project data and
evaluating it against the baseline to support decision-making throughout   12
                                                                             Capability Maturity Model and CMM are registered in the U.S. Patent
the project’s life cycle.                                                  and Trademark Office by Carnegie Mellon University.



20                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                     Economics and Statistics Administration



2 capabilities (see table, page 20) for the redesign, which would       airfreight services over an 11-month period to ship decennial
provide the elements most critical to controlling a complex             materials to regional and local offices around the country.
software project—requirements management; project planning,
tracking, and oversight; configuration management; and quality          Based on GSA’s information, we undertook an audit to review the
assurance.                                                              practices used by the bureau to procure air transportation and
                                                                        determine whether the two carriers had in fact overcharged the
However, the median time for advancing from level 1, the                government. GSA suspended its review pending the completion
bureau’s current status, to level 2 is 2 years, so the bureau           of our audit.
needs a plan and strategy to significantly shorten its
progression time. We recommended that Census provide the                We found that both carriers had overcharged Census and that
management commitment, resources, and oversight needed to               the bureau did not (1) follow federal transportation manage-
attain CMM® level 2 capabilities as soon as possible. Census            ment regulations for acquiring the airfreight services or
agreed with our recommendations. (Office of Systems                     (2) independently estimate the cost of shipments beforehand or
Evaluation: OSE-15725)                                                  thoroughly audit the final charges on the GBLs, and was
                                                                        therefore unaware that it was being overcharged. We also found
                                                                        that a freight weight specialist, with no contracting authority,
                                                                        negotiated rates and signed agreements with the carriers.

CENSUS BUREAU OVERPAID                                                  In light of our findings, GSA resumed and completed its review
$2 MILLION FOR AIRFREIGHT                                               of GBLs and has since billed the carriers for refunds of more than
                                                                        $2 million in shipping overcharges.
SHIPMENTS DURING
2000 DECENNIAL                                                          We recommended a series of actions to the Census Bureau to
                                                                        prevent this situation from recurring. We emphasized that the
The General Services Administration is required by law to audit         bureau must improve management and oversight of this and all
government transportation bills. After reviewing airfreight bills for   operations for Census 2010, if it is to contain costs and ensure an
Census 2000 delivery services, GSA reported to our office that it       efficient and successful decennial.
found evidence of substantial overcharges on government bills of
lading (GBLs) submitted to Census by the two carriers that made         The bureau agreed with our recommendations and described
the air shipments out of the Census National Processing Center          actions it has taken or plans to take to address them. (Economics
(NPC). Census, through its NPC, paid more than $11 million for          and Statistics Audits Division: ESD-14911)




September 2003/Semiannual Report to Congress                                                                                          21
                         INTERNATIONAL TRADE
                         ADMINISTRATION
                                   A FEW KEY WEAKNESSES UNDERCUT

T
       he
       International
                                        GENERALLY SOUND OPERATIONS AT
       Trade Administration                  US&FCS GREECE
is responsible for trade promotion
and policy issues associated with most          Greece—an import-dependent country of 10.6 million residents—is a difficult
nonagricultural goods and services. ITA           market for U.S. firms. American exports totaled $1.15 billion in FY 2002—a 4.5
works with the Office of the U.S. Trade             percent share of Greece’s import market. One reported reason for this small
Representative to coordinate U.S. trade policy.       market share is that Greece is a member of the European Union, and European
ITA has four principal units:                           companies offer stiff competition to exporters from the United States.

Market Access and Compliance develops and                       The U.S. and Foreign Commercial Service13 post in Greece has a very
implements international economic policies of a                  active advocacy program and a full menu of trade events to assist firms
bilateral, multilateral, or regional nature. Its main             seeking to tap the Greek market. Located in the capital city of Athens,
objectives are to obtain market access for American                the post had an FY 2002 budget of $1.14 million. Until February
firms and workers and to ensure full compliance by                  2002, it also maintained a presence in Northern Greece (in the city
foreign nations with trade agreements signed with the               of Thessaloniki).
United States.
                                                                      We inspected US&FCS Greece at the request of the U.S.
Trade Development advises on international trade and                  ambassador, who was concerned about the integrity of post
investment policies pertaining to U.S. industrial sectors,            operations following problems associated with services provided to
carries out programs to strengthen domestic export                    a U.S. firm seeking to enter the Greek market.
competitiveness, and promotes U.S. industry’s increased
participation in international markets.
                                                                     SUMMARY OF FINDINGS
Import Administration defends American industry
against injurious and unfair trade practices by                    MANAGEMENT ENHANCEMENTS
administering the antidumping and countervailing
duty laws of the United States and enforcing other               Though the post’s senior
trade laws and agreements negotiated to address                 commercial officer (SCO)
such trade practices.                                          and staff were praised by          ITA established the Advocacy
                                                                                                  Center in 1993 to help ensure
                                                             colleagues and clients for their
U.S. and Foreign Commercial Service                                                               U.S. products and services have
                                                           cooperation and responsiveness,
promotes the export of U.S. products and                                                          the best possible chance of selling
                                                         we found gaps in management
helps small and medium-sized                                                                      abroad. The center promulgates
                                                       oversight of US&FCS Greece
businesses market their goods                                                                     guidelines to help government
                                                    operations that undercut the efficacy of
and services abroad. It has more                                                                  personnel determine whether and
                                                 established controls and procedures and          to what extent they should assist
than 250 domestic and                        ultimately led to problems associated with the       U.S. firms interested in a specific
foreign offices.                         services provided to the U.S. firm. We also noted        commercial transaction or oppor-
                                    that when assisting U.S. companies that are seeking           tunity overseas—for example, a
                              contracts in Greece, the post needs to improve its                  tender sponsored by a foreign
                      coordination with ITA’s Advocacy Center (see box) to ensure that            government.
       US&FCS, the ambassador, and the rest of the U.S. mission do not appear to be
giving favored or preferential treatment to any one U.S. company.

13
     US&FCS is also known as the U.S. Commercial Service.



22                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                         International Trade Administration



TIMELINESS OF SERVICES, MARKET                                         FINANCIAL AND
RESEARCH PRODUCTION, AND EXPORT                                        ADMINISTRATIVE OPERATIONS
SUCCESS REPORTING
                                                                       Our review of US&FCS Greece’s financial and administrative
Though most US&FCS Greece’s clients are pleased with the               operations—collections, inventory, time and attendance, petty
post’s services and products, we found that certain core products      cash, procurements, representation funds, and the budget—found
and services were not delivered in a timely manner and the post’s      all to be properly managed. We also noted that the post had
reporting on market developments was less frequent than that of        corrected weaknesses identified in an April 2002 review
similarly sized US&FCS posts. In addition, our review of 57            conducted by the Commercial Service’s Office of Planning. Only
selected export successes reported by the post in 2002 and 2003        one minor issue requires attention: the post does not appear to
revealed 17 instances in which the post either overstated the value    need all of its four vehicles and should either reassign or surplus
of the success, reported “anticipated” rather than actual sales, or    two of them.
took credit for a success it was not involved in or that did not
occur. As a result, at a minimum, US&FCS Greece inflated the
value of export successes reported for this period by more than        US&FCS RESPONSE
$118 million, or nearly half of the total dollar value of the export
successes in our sample.                                               The Commercial Service agreed with our 14 recommendations
                                                                       for improving operations and submitted an action plan that
                                                                       outlines many specific steps it has taken to strengthen its
EXPORT SUCCESSES REPORTED BY                                           oversight of its post in Greece. (Office of Inspections and
US&FCS GREECE AND POSTS OF                                             Program Evaluations: IPE-15804)
SIMILAR SIZE (FY 1999-2003)

 US&FCS Post          1999     2000      2001     2002      2003

 Greece                 4         8       31        50       57

 Portugal              35        43       85       106       89

 Poland                39        53      112        50       86

 Hungary               10         2       47        66       61

 Czech Republic         0        42       65       111       91

Information for FY 2003 is incomplete, but despite increases in
export successes reported by CS Greece, the number remains low
compared to totals for other posts of similar size. At the time of
our review of its export successes, Greece reported only 28. By
the time our report was issued in draft, an additional 29 had been
reported, equalling the total—57—shown here for FY 2003.

Source: US&FCS E-Menu.




September 2003/Semiannual Report to Congress                                                                                         23
                                       MINORITY BUSINESS
                                       DEVELOPMENT AGENCY
                          WEAKNESSES IDENTIFIED IN MBDA’S

T
       he
       Minority
                                  PERFORMANCE REPORTING
       Business
Development Agency                     In January 2003 we initiated a preliminary review of MBDA’s performance reporting in the
was created to help                      Department’s FY 2002 Performance & Accountability Report to determine the validity of the
minority-owned and operated                performance data reported under the measure for contracts awarded to assisted minority-
businesses achieve effective and             owned businesses (MBEs). This measure is intended to indicate MBDA’s progress in
equal participation in the American           achieving its first performance goal: “Develop an entrepreneurially innovative market-
free enterprise system, and overcome            focused economy.”
the social and economic
disadvantages that have limited their             The FY 2002 reported dollar value for just the Minority Business Opportunity
participation in the past. MBDA                    Committee (MBOC) program was $905 million, or nearly 70 percent of the total
provides management and technical                  ($1.3 billion) reported for the performance goal. We determined early in our audit
assistance to minority firms upon                   process that this value appeared overstated, and we apprised MBDA of our
request, primarily through a network of             observations. The $905 million appeared to include the value of procurement
business development centers. It also               opportunities that MBOC had merely disseminated information about to MBEs,
promotes and coordinates the efforts of             rather than the value of contracts actually secured. We believe the composition of
other federal agencies in assisting or              the reported results was not made clear in the Department’s Accountability Report.
providing market opportunities for
minority businesses.                               A factor contributing to the problem is the lack of clear, written guidance for
                                                  program operators, managers, and evaluators regarding what constitutes performance
                                                 accomplishments and how they should be documented and reported by MBDA to the
                                               Department and to OMB.

                                          We are currently working with MBDA to come up with an appropriate way to address
                                        the noted deficiencies, correct past inaccuracies, and better define its performance
                                       measurement criteria.




24                                                                              U.S. Department of Commerce/Office of Inspector General
                       NATIONAL OCEANIC
                       AND ATMOSPHERIC
                       ADMINISTRATION
                               INEFFECTIVE CONTRACT NEGOTIATIONS,

T
       he                            REVIEW, AND OVERSIGHT COST NOAA
       National
       Oceanic and                        $4.5 MILLION ON NEXRAD TRANSITION
Atmospheric Administration                    POWER SOURCE ACQUISITION
studies climate and global change;
ensures the protection of coastal                In 1992 NOAA’s National Weather Service began exploring technical solutions to
oceans and the management of marine                power supply problems affecting the 158 Next Generation Weather Radar
resources; provides weather services; and            (NEXRAD) systems—high resolution Doppler weather radar systems jointly
manages worldwide environmental data.                 designed, acquired, and operated by the Departments of Commerce (NWS),
NOAA does this through the following                   Defense (Air Force and Navy), and Transportation (Federal Aviation
organizations:                                           Administration). A tri-agency Radar Operations Center (ROC) located in
National Weather Service reports the weather of           Norman, Oklahoma, is responsible for meteorological, software,
the United States and provides weather forecasts           maintenance, and engineering support for all NEXRAD systems. The
and warnings to the general public.                        ROC is a component of NWS’ Office of Operational Systems (OOS).
National Ocean Service issues nautical charts;
                                                                    The search for supplementary power sources was prompted by two
performs geodetic surveys; conducts research; and
                                                                    problems that degraded NEXRAD operability: power loss—and
develops policies on ocean mining and energy.
                                                                     resultant loss of critical data—during transitions between commercial
National Marine Fisheries Service conducts a                         power and the standby engine generator; and poor power quality at
program of management, research, and services related                remote NEXRAD sites, which shortens the life of the systems’
to the protection and rational use of living marine                 electronics and increases maintenance costs. To solve these problems,
resources.                                                          the ROC sought to acquire transition power sources (TPS)—
National Environmental Satellite, Data, and                        uninterruptible power systems that prevent power loss to the radar
Information Service observes the environment by                    during power transfer and protect the electronics from commercial
operating a national satellite system.                            power anomalies.
Office of Oceanic and Atmospheric Research
                                                                The ROC assessed two TPS technologies: static and rotary. A static TPS
conducts research related to the oceans and
                                                               consists of a rectifier/battery charger, battery, and inverter; rotary units
inland waters, the lower and upper atmosphere,
                                                             consist of an electric motor mechanically connected to a generator. The
space environment, and the Earth.
                                                            ROC’s testing showed commercial off-the-shelf rotary technology to be
Office of Marine and Aviation                            feasible, and NWS decided to acquire rotary TPS units for NEXRAD. NOAA
Operations operates NOAA’s ships and                   executed a contract in 1997 with a prime contractor who would supply the rotary
aircraft and provides NOAA                           units via a subcontractor. (The prime contractor manufactured static TPS units only.)
programs with trained technical
and management personnel                        Installation began the following year, and some units quickly began to present problems, the
from the nation’s seventh                    most serious being bearing noise and failures. Although the subcontractor attempted to solve each
uniformed service.                       problem, some were resistant to solution. By May 2000, with 94 rotary TPS units installed, 33 were
                                   out of service, and the ROC directed that the TPS units be shut down immediately. In November 2000
                             NOAA modified the original TPS contract to authorize acquisition of the prime contractor’s static TPS in place
                    of the rotary units.

We conducted an evaluation of the TPS acquisition to determine whether (1) NWS paid for defective equipment (i.e., the original TPS
units), (2) the actions of the NOAA contracting office to modify the contract received proper review and oversight, (3) program and




September 2003/Semiannual Report to Congress                                                                                             25
National Oceanic and Atmospheric Administration



contracting decisions regarding the TPS were reasonable                 decision to switch to the prime contractor’s static TPS was
and supportable, (4) the acquisition was planned and managed            made without closely monitoring the subcontractor’s progress
effectively, and (5) goods and services were delivered                  in implementing corrections and without assessing static units
as intended.                                                            from other manufacturers. NOAA also did not consult with the
                                                                        FAA regarding that agency’s positive experience with (1) rotary
                                                                        units supplied by the same subcontractor for its NEXRAD
                                                                        systems and (2) static units deployed on a similar FAA radar
    COST IMPACT OF MODIFICATION TO
                                                                        system that incorporated newer technology, which might be
          ORIGINAL CONTRACT
                                                                        more suitable for NEXRAD than the static units provided by the
                                                                        prime.
  At the time the modification was executed, NOAA had
  paid $3.9 million for equipment and associated costs,
                                                                        We made a number of recommendations to rectify the problems
  and was withholding payments of $996,499. In negoti-
                                                                        we noted. NOAA agreed with them, stating they represent good
  ating the switch to its static units, the prime initially
                                                                        business practice, but disagreed with most of our specific findings.
  proposed the retrofit of the 94 rotary units at a cost of
                                                                        NOAA described the decision of whether to continue with the
  $4.2 million and installation of 56 new static units at a
                                                                        rotary unit as a tough judgment call for its managers. We agree,
  cost of $5.3 million. The proposal noted that this
                                                                        and that is why we believe NOAA managers shortchanged
  amount reflected $2.6 million in credits and discounts,
                                                                        themselves by failing to ensure their staffs provided accurate
  conditional upon NOAA's paying the withheld pay-
                                                                        information and sound analysis for making their difficult
  ments and fees.
                                                                        judgments. We urged NOAA and NWS to give particular attention
                                                                        to our recommendation that they evaluate their acquisition
  The prime subsequently revised its proposal, agreeing
                                                                        policies, procedures, and oversight and identify actions needed to
  to waive the outstanding payments but reducing the
                                                                        prevent similar problems from occurring on other acquisitions.
  discount. The net effect of this offer was that it
  increased the total proposed price by $996,449—the
                                                                        According to the Office of the Chief Financial Officer, the
  exact amount of the payments NOAA had withheld.
                                                                        Department’s procurement executive is reviewing this acquisition
  NOAA accepted this proposal without adequate analy-
                                                                        to determine what corrective action may be appropriate and
  sis and negotiation, and in so doing, paid for all defec-
                                                                        whether operating unit or departmental oversight processes should
  tive or removed rotary units.
                                                                        be modified to prevent similar incidents in the future. (Office of
                                                                        Systems Evaluation: OSE-15676)
  Prime's final proposed cost for retrofit
  of sites having rotary units . . . . . . . . . . . .$5,204,025
  Less estimated savingsa attributed to
  new TPS installations . . . . . . . . . . . . . . . . .(726,723)
                                                                        PROCESS FOR REDUCING
  Total estimated additional cost
  to NOAA . . . . . . . . . . . . . . . . . . . . . . . . .$4,477,302   THE CRITICAL
                                                                        HYDROGRAPHIC SURVEY
  a
    Based on the difference between the estimated cost delin-
  eated in the basic contract for the remaining new installa-
                                                                        BACKLOG LACKS KEY
  tions using a rotary TPS and the estimated cost for new               MANAGEMENT CONTROLS
  installations with the static TPS. This estimate does not
  include maintenance, spares, or extended warranties.
                                                                        NOAA has a statutory mandate to enable safe ocean transport of
                                                                        marine commerce by providing nautical charts and related
                                                                        information, and to collect basic hydrographic data that supports
We found that NWS did indeed pay for defective equipment,               engineering, scientific, commercial, and industrial needs. To
and contracting personnel modified the contract without                 fulfill this mandate, NOAA—using state-of-the-art technology—
adequate negotiation and in the absence of proper review and            conducts hydrographic surveys of the U.S. Exclusive Economic
oversight from NOAA. The result was an estimated increase in            Zone, an area of more than 3 million square nautical miles that
contract costs of $4.5 million (see box). We also found that once       extends 200 nautical miles offshore from the nation’s coastline.
the rotary units began to fail, NOAA seriously mishandled the           The resulting data is used to create the charts and to support a
acquisition/management process, with the result that the rotary         variety of maritime functions, including port and harbor
TPS was abandoned without sufficient evaluation and the prime           maintenance (dredging), coastal engineering (beach erosion and
contractor’s static TPS was selected without serious                    replenishment studies), coastal zone management, and offshore
consideration of any other alternatives. Specifically, the              resource development.



26                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                 National Oceanic and Atmospheric Administration



In 1994 NOAA identified approximately 43,000 square nautical                 SUMMARY OF FINDINGS AND
miles, primarily coastal shipping lanes and approaches to major              RECOMMENDATIONS
U.S. ports, as critical areas14 in need of hydrographic survey,
known as “the critical survey backlog.”
                                                                             CONTROLS FOR MANAGING,
                                                                             STABILIZING, AND DOCUMENTING THE
In FY 1998 Congress specified that NOAA use private sector
                                                                             CRITICAL BACKLOG ARE INADEQUATE
contractors to augment the data acquisition activities of its
hydrographic vessels, and appropriated a total of $89.7 million              NOAA indicated that it does not have the original nautical charts
for FYs 1998 through 2002 to be used for such contracting.                   that specify the critical backlog baseline established in 1994 and
                                                                             has since modified the baseline. We found that it continues to
We conducted an audit to determine and validate NOAA’s                       make undocumented changes. NOAA officials acknowledged
progress toward reducing the critical survey backlog, identify and           they lack written policies and procedures for documenting the
assess agency goals and plans for ultimately eliminating it, and             history of the backlog’s composition. Without such controls,
evaluate the effectiveness of NOAA’s management controls over                NOAA cannot provide assurance that it is making progress
the backlog reduction program.                                               toward reducing the backlog, nor were we able to determine the
                                                                             status of its efforts to do so. We recommended that such policies
                                                                             and procedures be implemented, the backlog’s composition be
                                                                             stabilized and only modified to reflect reductions of identified
                                                                             backlog areas, and that all related nautical charts and
                                                                             documentation be preserved.


                                                                             APPROPRIATED FUNDS ARE SOMETIMES
                                                                             USED TO SURVEY AREAS OUTSIDE THE
                                                                             CRITICAL BACKLOG

                                                                             During FYs 2001 and 2002, NOAA obligated $6.5 million of its
                                                                             backlog funding for surveys of nonbacklog locations, despite
                                                                             Congress’s clear direction that the appropriation be used to hire
                                                                             private surveyors to help reduce the backlog. Not only is NOAA’s
                                                                             action inconsistent with the intent of the funding, it also increases
                                                                             the likelihood that the agency will need additional appropriations
                                                                             to achieve backlog reduction goals. NOAA must take steps to
                                                                             ensure that funds appropriated for reducing the backlog are used
Hull-mounted multibeam sonar (left) and towed side-scan                      to survey those areas only. At present, the agency has no written
sonar (right) represent some of the state-of-the-art                         policies and procedures for restricting use of these funds to
technology NOAA uses to detect, locate, and identify                         critical survey backlog areas. We recommended that NOAA
wrecks and obstructions on the ocean floor.                                  develop such guidance.

Source: NOAA’s National Ocean Service.
http://oceanservice.noaa.gov/mapfinder/products/hydro/welcome.html
                                                                             OTHER FINDINGS
Accessed November 2003.

                                                                             We also determined that NOAA does not track full program
                                                                             costs, enforce delivery deadlines for completion of contractor
                                                                             surveys, and lacks a detailed, documented work plan for
                                                                             eliminating the backlog.


                                                                             NOAA’S RESPONSE
14
  Areas deemed critical are waterways that have (1) high volumes of
commercial traffic (e.g., cargo, fishing, and cruise vessels and ferries),   NOAA generally concurred with all but one of our
(2) extensive petroleum or hazardous material transport, (3) transiting      recommendations—disagreeing on the need for a detailed work
vessels with low under-keel clearance over the seafloor; or that (4)         plan. The agency stated that it will continue to develop general
prompt compelling requests for surveys from users.                           work plans and projections for eliminating the backlog based on



September 2003/Semiannual Report to Congress                                                                                                27
National Oceanic and Atmospheric Administration



current appropriations and technology. We reaffirm our               reported. In some cases, we found that the measures themselves
recommendation, noting that without documented plans that            should be revised, augmented, or eliminated.
include specific cost and schedule goals, NOAA cannot fully
account for the time and resources it expends. (Science and          For example, measures for advancing short-term warnings and
Technology Audits Division: STD-15120)                               forecasts of tornadoes and flash floods, as currently calculated,
                                                                     reflect the average lead times NWS provides the public prior to
                                                                     the weather events for which it issued warnings ahead of time.
                                                                     They do not adequately reflect the fairly significant number of
AUDITS OF NOAA                                                       tornadoes and flash floods for which the agency’s warning
                                                                     provided the public with no lead time or for which it issued no
PERFORMANCE MEASURES                                                 warning at all. We also noted the omission of key details in
CONTINUE TO POINT UP                                                 reported results—for example, that some measures were based
                                                                     on estimates and others excluded data from certain parts
NEEDED IMPROVEMENTS                                                  of the country. Such omissions further limited the
                                                                     measures’ usefulness.
Our series of performance measurement audits continued this
past semiannual period with a review of another two of NOAA’s        Similarly, measures for implementing seasonal to interannual
seven goals15 that support the Department’s environmental            climate forecasts—as titled and as described in annual
stewardship responsibilities: (1) advance short-term warnings        performance reports—do not clearly articulate what is being
and forecasts, and (2) implement seasonal to interannual climate     assessed or what results have been achieved. For example,
forecasts. NOAA’s net cost of operations for activities related to   discussions concerning the measure, “new climate observations
these two goals in FY 2001 was more than $1.5 billion—or more        introduced” (which refers to climate-monitoring systems),
than half of the total amount spent for all seven NOAA goals.        suggest that NOAA is counting multiple types of systems brought
Within NOAA, the National Weather Service conducts most of           on-line during the fiscal year, when in reality it is measuring the
the work related to our analysis.                                    introduction of only one type. And the number it reported
                                                                     introducing in FY 2001 was actually the number budgeted for
                                                                     procurement rather than the number actually deployed.

                                                                     NOAA concurred with our findings, with some qualifications,
                                                                     and is taking action to strengthen internal controls and thereby
                                                                     eliminate the weaknesses we identified. (Financial Statements
                                                                     Audits Division: FSD-15643)




                                                                     ENVIRONMENTAL
                                                                     TECHNOLOGY LABORATORY
                                                                     REVIEWS NOTE ACCOUNTING
 Source: OIG.                                                        DEFICIENCIES
                                                                     NOAA’s Environmental Technology Laboratory (ETL) in
We noted a commitment on the part of NOAA to report outcome-         Boulder, Colorado, develops remote sensing instrumentation that
oriented measures and reliable information, and extensive efforts    allows meteorologists and oceanographers to peer inside the
by NWS to ensure the accuracy of performance information.            Earth’s atmosphere and oceans. ETL works with local, federal,
However, as in our prior review, we found that improvements          and international agencies, as well as universities and private
were needed for all of the measures associated with the goals, to    corporations, to improve understanding of the atmospheric and
correct internal control weaknesses that were permitting             oceanic processes that govern our weather and climate, and to
inaccurate, incomplete, or unclear performance data to be            develop new remote sensing systems

                                                                     In November 2001 the Department of Defense Office of
15
  The March 2003 Semiannual Report to Congress detailed our review   Inspector General reported that the lab had inappropriately
of two NOAA goals—promote safe navigation and sustain healthy        charged $1.6 million in expenses to a joint Defense/ETL
coasts (FDS-14998).



28                                                                              U.S. Department of Commerce/Office of Inspector General
                                                                                           National Oceanic and Atmospheric Administration



project.16 This report prompted us to conduct a broader                federal, departmental, and agency requirements. We also
examination of the lab’s administration, management, and               recommended that NOAA follow through on efforts already
oversight of financial operations and programs. During this past       under way to reduce ETL’s reliance on reimbursable funding
semiannual period, we concluded two audits of ETL activities:          and thus mitigate the financial uncertainty it brings. NOAA
one of its handling of work for which it receives reimbursement;       agreed with our recommendations. (Business and Trade Audits
the second, of its management of the purchase card program.            Division: BTD-14852)


WEAKNESSES EXIST IN                                                    VULNERABILITIES IN PURCHASE
MANAGEMENT OF                                                          CARD PROGRAM PERSIST
REIMBURSABLE FUNDS
                                                                       Our audit of ETL’s purchase card program identified a number of
Reimbursable work—activities for which ETL receives                    internal control weaknesses—some new and some noted in a 1999
payment from other federal agencies—is a major source of               audit of the program, but still unresolved—that leave the laboratory
funding for the lab, accounting for roughly 45 percent of its          vulnerable to improper and wasteful spending. We found that
total obligations during fiscal years 2000-2002. Our audit             ETL’s policies and procedures for the program are unclear and are
sought to determine whether ETL properly identifies, records,          not routinely updated to reflect federal and departmental changes.
and recovers the costs of this work; complies with federal and         In addition, the lab does not (1) require cardholders to obtain
departmental requirements in doing so; and has a sound                 written preapprovals for applicable purchases, (2) promptly close
operating plan that appropriately balances reimbursable income         accounts of all departing employees, (3) ensure that cardholders
and activities with NOAA funding and pursuits, and ultimately          take the required card use refresher training, and (4) provide
supports NOAA’s mission.                                               adequate management oversight of individual card expenditures.
                                                                       Cardholders, for their part, do not always protect their cards from
We conducted a comprehensive examination of ETL’s                      theft or unauthorized use.
reimbursable operations and activities for fiscal years 2000,
2001, and through May 2002. We identified significant instances        NOAA concurred with most of our findings and
of noncompliance with Department and NOAA policies and                 recommendations. (Business and Trade Audits Division:
procedures for administrative control of funds. Specifically,          BTD-15139)
ETL’s management of reimbursable activities did not comply
with Economy Act mandates and departmental policies and
procedures requiring the lab to recover the full cost of goods and
services it provides. To compensate for funding shortfalls that
                                                                       FISMA REVIEW AT
occurred as a result, ETL inappropriately transferred                  NESDIS IDENTIFY IT
expenditures between unrelated reimbursable tasks as well as           SECURITY CONCERNS
between reimbursable and nonreimbursable projects.
                                                                       As part of our Department-wide FISMA review (see page 37), we
In addition, we found two instances in which ETL appears to            evaluated security controls for two systems at the National
have reprogrammed appropriated funding from its intended               Environmental Satellite, Data, and Information Service
purpose, in one case to cover unreimbursed expenditures and in         (NESDIS)—(1) the local area network (LAN) that operates at
another, to “repay” funds borrowed from a NOAA program in a            NESDIS headquarters and (2) the agency’s Research Data
prior year. Congress requires notification of such shifts 15 days      System (RDS)—and found similar weaknesses affecting both.
in advance of their occurrence when they exceed a certain
amount. Both of the shifts we identified required such                 For example, system security measures and server room safety
notification, yet in the first instance, NOAA failed to provide it,    features such as fire suppression mechanisms do not adequately
and in the second, provided it 9 months after the fact.                protect against the full range of vulnerabilities and thus need to
                                                                       be enhanced. Risk assessments and security and contingency
We made a series of recommendations to the appropriate                 plans are incomplete. The LAN and RDS were certified and
NOAA officials to improve internal controls on funds                   accredited, though security controls were neither tested nor their
management and bring ETL into compliance with all applicable           effectiveness documented.

                                                                       We made a number of recommendations specific to these
16
  Department of Defense, Office of Inspector General. November 23,
                                                                       findings, and also noted that NESDIS needs to ensure that agency
2001. Advanced Sensor Applications Program Joint Project, Report No.
D-2002-017, p. i.                                                      officials give greater attention to information security. NESDIS



September 2003/Semiannual Report to Congress                                                                                          29
National Oceanic and Atmospheric Administration



agreed with our recommendations and has taken action to address
them. (Office of Systems Evaluation: OSE-15996-1 and 2)



IT SECURITY WEAKNESSES
NOTED AT NMFS MIRROR
THOSE OF OTHER
COMMERCE AGENCIES
NMFS’ wide area network (WAN) and headquarters local area
network were also among the Commerce systems we evaluated
during our FY 2003 Department-wide FISMA review (see pages
29 and 37), and our findings for these two systems were similar
to what we found elsewhere. Most notably, risk assessments and
security plans for the NMFS systems were incomplete and
inconsistent, and thus inadequate sources for identifying needed
security controls. Though the agency has established controls,
these have not been tested and their effectiveness therefore not
verified; both actions are prerequisites for certification and
accreditation, yet the systems were certified and accredited
regardless. Additionally, NMFS has not completed its
contingency planning for either system.                                 Cape Hatteras, NC, to western Nova Scotia Shelf—Area
                                                                        covered by NEFSC’s groundfish survey.
NMFS agreed with all of our recommendation for correcting the
identified deficiencies and is taking steps to resolve them. (Office    The status of both commercial and recreational fisheries—
of Systems Evaluation: OSE-15693)                                       determined largely through stock assessments—is the basis of
                                                                        regulations governing catch limits, fishing days at sea, and so
                                                                        forth. For more than 400 years, the fishing industry off the
                                                                        northeastern U.S. coast has been identified both culturally and
CONCERNS OVER IMPROPER                                                  economically with harvesting groundfish (fish that swim in close
CALIBRATIONS PROMPT                                                     proximity to the bottom of the ocean). Thus any regulations that
                                                                        affect fishing are of vital interest to the people of the region.
REVIEW OF NMFS
GROUNDFISH SURVEY                                                       Data used in stock assessments is carefully scrutinized and the
                                                                        methods used to create the estimates often undergo intense
The Magnuson-Stevens Act gives the National Marine Fisheries            scrutiny. This controversy is evident at NMFS’ Northeast
Service primary federal responsibility for managing marine fisheries.   Fisheries Science Center (NEFSC), where the calibration of the
Along with eight regional fishery councils, NMFS is charged with        gear used to tow the bottom trawl net that collects groundfish
preventing and ending overfishing of currently depressed stocks,        samples was a longstanding concern.
rebuilding depleted stocks, and reducing bycatch.
                                                                        Based on that concern, NEFSC inspected the trawl cables on the
                                                                        NOAA Research Vessel (RV) Albatross IV and found that marks
                                                                        designating the length of each segment of the cables attaching
                                                                        the bottom-trawl net to the vessel differed. When in use during
                                                                        an average bottom-trawl survey, the mismarking caused one
                                                                        cable to be longer than the other by about 6.5 feet. The different
                                                                        lengths of cable deployed on either side of the net increased the
                                                                        risk that the net operated improperly and thus could potentially
                                                                        skew fish population counts. The mismarked cable was used in
                                                                        eight bottom-trawl surveys, from the winter of 2000 until
                                                                        spring 2002.

                                                                        We focused our review on assessing whether (1) sufficient


30                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                         National Oceanic and Atmospheric Administration



policies and procedures are in place to effectively capture,          NMFS ALSO NEEDS TO TAKE MORE
identify, and, as appropriate, address concerns raised by             STEPS TO ENSURE THAT THE COST OF
stakeholders; (2) sufficient protocols are available to calibrate,    GEAR-RELATED ACTIVITIES ARE
operate, inspect, and maintain bottom-trawl survey gear; and (3)      UNDERSTOOD BY DECISION-MAKERS
procedures are in place to ensure management information is           AND AGENCY MANAGERS
available to assess the cost of gear calibration, operation,
inspection, and maintenance activities.                               If such costs are not accurately reflected in budgets, NMFS risks
                                                                      not having enough funding to support critical survey procedures,
Prior to and during our review, NOAA took several steps to            such as calibration and maintenance, needed to maintain
address stakeholder concerns including issuing new protocols and      consistent survey quality and, thus, accurate measures of relative
conducting two peer reviews that concluded that the trawl cable       fish abundance.
problem did not have a significant impact on the actual survey
catch data for 2000 and 2001. Despite these actions, we found         NOAA agreed with 15 of our 18 recommendations and in most
several areas where additional improvements could be made.            cases provided specific steps for implementing them. And
                                                                      although NOAA only partially concurred with a recommendation
                                                                      regarding evaluating an existing warehouse system for use by its
NMFS NEEDS TO DEVELOP AN                                              other science centers, its response appeared to address the intent
AGENCY POLICY FOR HANDLING                                            of our recommendation. (Science and Technology Audits:
COMPLAINTS OR CONCERNS RAISED                                         STD-15750)
BY OUTSIDE STAKEHOLDERS

We found that concerns about the calibration of trawl cables had
been expressed but were not addressed for some time. While we are
aware that not every concern raised by outside stakeholders will
warrant action, having a process for collecting and assessing these
concerns is important for ensuring that managers are aware of
potential problems and can take sufficient action.


NMFS NEEDS TO INCLUDE, IN ITS NEW
SET OF PROTOCOLS, ADDITIONAL
POLICIES AND PROCEDURES FOR
CALIBRATING, OPERATING, INSPECTING,
AND MAINTAINING SURVEY GEAR

For example, NMFS needs to
    ■   address calibration issues that remain, despite improved
        protocols for calibrating trawl cables;
    ■   more completely address in the protocols concerns about
        the condition and operation of the gear;
    ■   ensure, through instituting a better warehouse
        management system, that inspection, maintenance, and
        inventory records are complete and accurate; and
    ■   take specific measures to better ensure protocol
        recommendations are followed.




September 2003/Semiannual Report to Congress                                                                                       31
                         TECHNOLOGY
                         ADMINISTRATION
                                  CHARGE OF PREFERENTIAL TREATMENT IN

T
       he
       Technology
                                      CONTRACT AWARD PROMPTS AUDIT
       Administration
                                               A U.S. company charged that it did not receive fair, equal, or appropriate treatment during
serves the needs of technology-
                                                  NIST’s procurement process and that the agency showed preferential treatment to a
based industry, advocates federal
                                                     foreign firm; the charge resulted in a letter from the Connecticut congressional
actions and policies to speed the
                                                       delegation to the Secretary of Commerce. The complaint involved a contract
transfer of technology from the
                                                          awarded by NIST for a five-axis machining center to be used for several
laboratory to the marketplace, and removes
                                                            purposes including performing metrology and machining experiments. In
barriers for commercializing new
                                                             December 2002 NIST forwarded to this office the delegation’s letter
technologies. It includes three major
                                                               requesting that we undertake a review of NIST’s procurement decision.
organizations:
Office of Technology Policy works to raise                       In response, we audited the machining center contract and evaluated
national awareness of the competitive challenge,                   whether NIST followed the correct contracting procedures for the
promotes industry/government/ university                            procurement, specifically addressing each of the concerns raised. We
partnerships, fosters quick commercialization of                     found that one issue, which helped create confusion and
research results, promotes dedication to quality,                    contradictions, was NIST’s citation of the wrong procurement law in
increases industry’s access to and participation in                   the solicitation document.
foreign research and development, and encourages
adoption of global standards.                                         The Buy American Act was cited as the legislation governing how
National Institute of Standards and Technology                        offers would be evaluated. In this instance, however, that law did not
promotes U.S. economic growth by working to                           apply because of the value of the procurement. The Buy American Act
develop and apply technology, measurements, and                      generally is restricted to purchases valued at less than $169,000, that
standards. NIST manages four programs: the                          are not domestic end products,17 and are to be used within the United
Advanced Technology Program, the Manufacturing                      States. However, this procurement exceeded the dollar limitation of the
Extension Partnership Program, the Baldridge                      Buy American Act and was therefore subject to the Trade Agreements
National Quality Program, and NIST Laboratories.                 Act, which waives the applicability of the Buy American Act for some
National Technical Information Service is a                     foreign supplies and construction materials. As a result, offers of foreign
self-supporting agency that promotes the                       end  products from countries defined in the Federal Acquisition Regulation
nation’s economic growth and job creation by                 (FAR)     as a “designated country,” countries of the Caribbean Basin, and
providing access to information that                       member      countries of the North American Free Trade Agreement (NAFTA)
stimulates innovation and discovery.                     receive  the   same consideration as offers from U.S. companies.
NTIS accomplishes this mission
through information collection and                  Overall we concluded that NIST’s procedural errors had no effect on the ultimate
dissemination to the public and                  awarding    of the contract. We recommended, however, that the NIST acting deputy
through information and                       director  instruct the chief of the Acquisition and Assistance Division to develop and
production services to                     document   procedures   to ensure that all procurement actions comply with the provisions of the
federal agencies.                     FAR.   We  also recommended       that the chief be instructed to ensure that clear, accurate, and concise
                                 guidance is developed regarding how best value should be defined for procurement actions, as well as
                           how technical, past performance, and pricing reviews should be conducted when using the test program under
                  the simplified acquisition procedures,18 and ensure that the guidance is followed.

17
  A domestic end product means an end product manufactured in the United States, if the cost of its components mined, produced, or manufactured
in the United States exceeds 50 percent of the cost of all its components. (Source: FAR Subpart 25.1)
18
  FAR subpart 13.6 authorizes, as a test program, use of simplified procedures for the acquisition of supplies and services in amounts greater than the
simplified acquisition threshold but not exceeding $5 million.



32                                                                                         U.S. Department of Commerce/Office of Inspector General
                                                                                                                Technology Administration



NIST officials agreed with our recommendations and are in the         We recommended that NIST continue its suspension of award
process of revising internal quality control policies and             payments until the company reimburses the $205,126 of
procedures to address the issues. (Science and Technology             excessive drawdowns and submits accurate financial reports to
Audits: STD-15839)                                                    NIST. We further recommended that NIST designate the
                                                                      company as “high risk” and place it on a reimbursement-only
                                                                      payment basis if the suspension of award payments is removed.
                                                                      (Atlanta Regional Office of Audits: ATL-16095)
NIST’S ADVANCED
TECHNOLOGY PROGRAM                                                    ATP AWARD TERMINATED FOR
AND MANUFACTURING                                                     PREMATURE DRAWDOWNS
EXTENSION PARTNERSHIP
                                                                      In October 2001 NIST awarded a $1,907,201 Advanced
PROGRAM                                                               Technology Program cooperative agreement to a Torrance,
                                                                      California, company involved in innovative composite design and
As part of its efforts to spur technological development, NIST        engineering. The purpose of the agreement was to develop a
administers the Advanced Technology Program (ATP) to provide          unique high-speed manufacturing process to enable the efficient,
financial assistance through cooperative agreements, with the         affordable manufacture of a new generation of advanced
goal of transferring cutting-edge technology to industrial uses. In   electrical conductors as an upgrade for new or replacement power
addition, its Manufacturing Extension Partnership Program             transmission lines. The agreement was for a 2-year period with
(MEP) helps small and midsize companies integrate new                 $1,097,678 in funding for the first year and $809,523 for the
technologies and related management practices in order to             second year. The agreement required the company to provide a
enhance their performance and productivity. MEP also provides         matching share of $85,650 for each of the 2 years.
financial assistance through cooperative agreements.
                                                                      In February 2003 NIST suspended the cooperative agreement and
During this semiannual period we audited costs claimed under          requested that OIG perform an audit. The company had drawn
four ATP awards and two MEP awards, for which we questioned           down $781,200, or 97 percent of the year 2 funds, while only
costs totaling more than $6.1 million and identified federal funds    reporting costs of $474,753. Moreover, the company was not
be put to better use totaling more than $3.5 million. Summarized      responding to NIST’s request for documentation related to the
below are the results of the audits.                                  difference of $306,447.

                                                                      In March 2003 we issued an audit report that revealed that the
EXCESSIVE DRAWDOWNS                                                   company had prematurely drawn down $306,447 of federal funds
PROMPT SUSPENSION OF                                                  for year 2. Our report recommended that NIST require the
AWARD PAYMENTS                                                        company to reimburse the premature drawdown. NIST agreed
                                                                      and gave the company until May 2003 to comply. When the
In September 2001 NIST awarded a $2 million ATP cooperative           company failed to comply, NIST terminated the cooperative
agreement to a New York City firm that engineers technologies         agreement effective May 20, 2003, and established an account
for computer-aided surgery. The purpose of the project was to         receivable for $306,447.
develop and demonstrate innovative computerized anatomic
models for use in cancer therapy. The 3-year agreement required       Subsequent to our March 2003 report concerning the premature
a $110,500 cost-share, bringing total estimated project costs         drawdowns, we conducted a second audit of the award to assess
to $2,110,500.                                                        the allowability of project costs claimed. This second audit report
                                                                      questioned costs totaling $668,153 due to lack of supporting
NIST officials requested an audit of the award due to concerns        documentation for personnel, fringe benefits, equipment, and
about the company’s ability to account for federal funds spent.       accounting costs. We also found that the company had not
Our audit revealed that the company (1) had not contributed any       submitted financial reports required by the award.
of its required matching funds, (2) had drawn down $205,126 in
excess of the federal share of project costs, and (3) had filed       We recommended that NIST disallow $668,153 in questioned
inaccurate financial reports to NIST by overstating expenses          costs and require the company to reimburse excess federal
to justify excess drawdowns. On the basis of our report,              disbursements of $934,207, which includes the $306,447 in
NIST immediately suspended further award payments to                  premature drawdowns identified in our prior audit report.
the company.                                                          (Atlanta Regional Office of Audits: ATL-15922-2)




September 2003/Semiannual Report to Congress                                                                                        33
Technology Administration




CALIFORNIA-BASED COMPANY                                             administrative cost pools, (2) $56,978 of salary and fringe
CLAIMS $7 MILLION IN                                                 benefits costs, and (3) $67,661 in costs that were not included in
                                                                     the company’s approved budget. We recommended that NIST
UNALLOWABLE INDIRECT COSTS                                           disallow the questioned costs and recover $1,983,936 of excess
                                                                     federal disbursements. (Denver Regional Office of Audits: DEN-
We performed audits of two NIST ATP joint venture cooperative        14219-3-2 and -3)
agreements awarded to a California-based company that
manufactures equipment for the semiconductor industry. The first
audit involved a September 2000 cooperative agreement in which
the company was the administrator of a three-member joint
                                                                     EXCESS FEDERAL
venture. The 3-year award period of November 1, 2000, through        DISBURSEMENTS TO
October 31, 2003, had total estimated costs of $13,719,717, with     UNIVERSITY-BASED ENGINEERING
the federal government’s share not to exceed $6,716,870, or          SERVICE TOTAL $771,555
48.96 percent of allowable costs.
                                                                     In September 1999 NIST transferred an MEP cooperative
For the award period of November 1, 2000, through June 30,           agreement from a state of Texas economic development agency
2002, the company had submitted financial reports to NIST, on        to an engineering service that is a component of a state university.
behalf of the joint venture, claiming total project costs of         We performed an interim audit of the period September 1, 1999,
$5,531,718, which included $3,873,208 claimed by the                 through January 31, 2001. After the September 1999 transfer,
administrator company. The company provided cost schedules to        the award provided funding for the engineering service’s
us indicating that it incurred an additional $1,516,106 that was     headquarters, a statewide office, and several subrecipient centers.
not reported to NIST, bringing the company’s total project costs
to $5,389,314.                                                       Our audit revealed questioned costs of $1,954,279, including
                                                                     $1,610,252 in training costs primarily related to large
Our audit revealed $1,500,048 of questioned indirect costs as a      manufacturing firms, which are outside the scope of work of the
result of unallowable items included in the company’s proposed       NIST award and are therefore not allocable to the award, and
overhead and general and administrative cost pools. We               $344,027 in facilities and administrative expenses charged in
recommended that NIST disallow the questioned costs and              excess of allowable expenses, based on negotiated indirect
recover $17,894 of excess federal disbursements.                     cost-rate agreements. We also found that the recipient failed to
                                                                     reconcile cost claims with approved budget categories.
The second audit involved a September 1998 cooperative
agreement in which the company was originally a partner but          We recommended that NIST (1) disallow the questioned costs
became the joint venture administrator when the original             and seek recovery of the resulting $771,555 in excess federal
administrator company withdrew from the joint venture. The           disbursements, (2) direct the engineering service to prepare
five-member joint venture, which includes two other for-profit       financial analyses by award budget categories and obtain any
companies and two universities, was established to work on a         required approvals for award budget deviations, and (3) require
project involving intelligent control of the semiconductor           the engineering service to adjust subsequent financial reports to
patterning process. The 44-month award period of January 1,          eliminate these questionable items. Implementation of our
1999, through August 30, 2002, had total estimated costs of          recommendations will result in $3,360,000 in funds being put to
$18,292,775, with the federal government’s share not to exceed       better use during the remainder of the cooperative agreement
$9,110,456, or 49.8 percent of allowable costs.                      period. (Denver Regional Office of Audits: DEN-14401)

For the award period of January 1, 1999, through June 30, 2002,
the company had submitted financial reports to NIST on behalf        RECOVERY OF $1.6 MILLION
of the joint venture, claiming total project costs of $18,466,959,
which included $12,803,256 claimed by the administrator
                                                                     RECOMMENDED FROM
company. The company provided cost schedules to us indicating        MASSACHUSETTS NONPROFIT
that it had incurred an additional $848,438 that was not reported
to NIST, bringing the company’s total project costs to               In March 2000 NIST transferred an MEP cooperative agreement
$13,651,694.                                                         from a department of the Commonwealth of Massachusetts to a
                                                                     local nonprofit organization. The original award to the state
Our audit revealed $5,657,069 of questioned costs, including (1)     had been made in 1998 for purposes of improving the
$5,532,430 of indirect costs as a result of unallowable items        competitiveness and technical flexibility of small and medium-
included in the company’s proposed overhead and general and          size manufacturers in Massachusetts through improvements to




34                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                            Technology Administration



their manufacturing and training processes. The project had an       During this period, the recipient had claimed total costs of
initial 1-year award period of February 9, 1998, through February    $13,352,102, including a claim for preaward costs beginning
8, 1999, and estimated total costs of $7,045,045. The award was      March 1, 2000, and received federal disbursements totaling
amended twice in 1999 to extend the award period through             $3,689,510.
February 8, 2000, at an additional cost of $7,038,000, and to
provide Y2K funding in the amount of $1,305,226.                     Our audit revealed questioned costs totaling $8,177,606,
                                                                     including improper matching cost claims of $7,616,094,
At the time of the transfer, the award had remaining federal funds   unsupported contract costs of $513,333, and unallowable
of $994,971, which were to be matched with $1,989,942 in cost        preaward travel costs of $48,179. We also found weaknesses in
share, resulting in a federal cost-share of 33.33 percent of total   the recipient’s financial reporting system, resulting in a
allowable costs. The transferred award has been amended several      $1,096,614 discrepancy between costs reported to NIST and
times and now covers the period through April 30, 2004, with         costs recorded in the organization’s accounting records. We
estimated total costs of $43,652,897, including a federal share      recommended that NIST disallow questioned costs of
of $14,541,155.                                                      $8,177,606, recover the federal share of $1,599,349, and
                                                                     require the recipient to implement improvements to its
We audited the nonprofit’s cost claims for the period from the       financial reporting system. (Denver Regional Office of Audits:
transfer of the award, March 17, 2000, through June 30, 2001.        DEN-14422)




September 2003/Semiannual Report to Congress                                                                                   35
                           UNITED STATES PATENT AND
                           TRADEMARK OFFICE
                            ALLEGATIONS OF PATENT CORPS WRONGDOING

T
       he                      REFLECT PROCEDURAL LAPSES RATHER THAN
       United
       States                     INTENTIONAL MISDEEDS
Patent and
Trademark Office                      In response to requests from a patent applicant, the Office of Inspector General looked into charges
administers the nation’s                that USPTO personnel had purposely mishandled two patent applications and had manipulated
patent and trademark laws.               the agency’s Patent Application Location and Monitoring (PALM) system for personal gain.
Patents are granted and
trademarks registered under a              We found no evidence of manipulation or falsification but concluded that the agency did fail
system intended to provide                 to meet appropriate time frames for processing three of the complainant’s petitions and two
incentives to invent, invest in            amendments.19 In addition, data from USPTO’s PALM system indicated that the agency did
research, commercialize new                lose the two applications for 1 and 2 months, respectively. Further, it appears USPTO’s
technology, and draw attention             failure to delineate all pertinent information in its communications with the applicant and its
to inventions that would                   use of vague terms, such as “promptly,” to describe time frames for certain steps in the
otherwise go unnoticed.                   application process caused confusion and ultimately led to the complainant’s perception
USPTO also collects,                     of impropriety.
assembles, publishes, and
disseminates                          To resolve these weaknesses, we recommended that USPTO (1) quantify the term “promptly” as
technological                       it relates to agency responses to inquiries regarding an application’s status, (2) ensure that agency
information                       correspondence clearly identifies every status inquiry being addressed, (3) give applicants clear
disclosed in                    guidelines for submitting status inquiries, and (4) establish specific timeliness goals for handling and
patents.                     responding to applicant petitions.

                     USPTO concurred with all four of our recommendations. (Office of Inspections and Program Evaluations:
              IPE-16083)




19
     An applicant may submit an amendment to change, add, or delete information in the patent application.



36                                                                                        U.S. Department of Commerce/Office of Inspector General
                         DEPARTMENT-WIDE
                         MANAGEMENT
                              COMMERCE IT SECURITY CONTINUES

T
        he
        United
                                    TO IMPROVE, BUT SHOULD REMAIN
        States                           A MATERIAL WEAKNESS
Department of Commerce
promotes job creation and                      OIG’s independent evaluation of the Department of Commerce’s information security
improved living standards for all                 program and practices was conducted this year pursuant to the Federal Information
Americans by creating                               Security Management Act, which replaced the expiring Government Information
infrastructure that fosters economic                  Security Reform Act in December 2002. Unlike in years past, we did not separately
growth, technological competitiveness,                 evaluate and report on USPTO’s IT security, but rather incorporated that agency into
and sustainable growth. The Department                  a single, Commerce-wide review. This consolidation is in keeping with OMB’s FY
has three strategic goals:                                2002 Report to Congress on federal government information security reform, in
                                                           which it combined USPTO with the rest of the Department.
Goal 1: Provide the information and the
framework to enable the economy to                          In general, we found that senior management continues to give attention to
operate efficiently and equitably.                          information security. With support from the Deputy Secretary, the Department’s
                                                            chief information officer has worked hard to improve information security
Goal 2: Provide the infrastructure                          throughout Commerce and has made noteworthy progress. The Department
innovation to enhance American                              issued a new security policy in January 2003 that comprehensively defines a
competitiveness.                                           program for assuring the protection of agency information systems, and its
                                                           detailed requirements are helping improve the security programs of the operating
Goal 3: Observe and manage the Earth’s                    units. At USPTO, information security also continues to improve, and the agency
environment to promote sustainable                       is well on its way to having systems certified and accredited.20
growth.
                                                      Considerable challenges remain, however, for both the Department and USPTO, and
The Department has also established                  as in the past 2 fiscal years, we again believe that both should report information
a Management Integration Goal                      security as a material weakness until all systems considered national critical and mission
that is equally important to all                critical have been certified and accredited.
bureaus: Strengthen
management at all                          Our specific findings are noted below, with those for USPTO separately summarized when warranted.
levels.
                                   Information Security in IT Service Contracts Is Improving, but Additional Efforts Are Needed. In last
                               year’s evaluation, we concluded that federal and departmental policy and guidance for incorporating security
                        provisions into IT service contracts were lacking. In the intervening year, the Department drafted a standard contract
                provision for safeguarding the security of unclassified systems and information and developed acquisition-specific information
security training. While we noted some progress in incorporating security provisions into recent IT service contracts, there remains (1) a
general absence of provisions for controlling access to Department systems and networks; and (2) little evidence of contract oversight, or of
coordination among contracting, technical, and information security personnel in developing appropriate contract security requirements.

The Department Has Established a Sound Plan of Action and Milestone (POA&M) Process. Commerce develops, implements, and
manages POA&Ms for all systems that have identified security weaknesses. System owners21 prepare the POA&Ms for their systems,

20
  Certification is the formal testing and evaluation of the security safeguards on a computer system to determine whether they meet applicable
requirements and specifications. Accreditation is the formal authorization by management for system operation, including an explicit acceptance of risk.

21
  The Department’s information security policy defines a system owner as a project manager with day-to-day management and operational control
over the system and direct oversight of the system/network administrators and operations staff.



September 2003/Semiannual Report to Congress                                                                                                      37
Department-Wide Management



and the operating unit IT security officer prepares the POA&M          delineate requirements by life-cycle phase—and such
for the unit’s program. Units submit their POA&Ms to the               information is also missing from the agency’s system life-cycle
Department CIO monthly. Commerce monitors these plans                  management manual. These documents would be improved by
closely and uses them to manage corrective actions for identified      the addition of such information so that program officials and
weaknesses. The CIO’s office intends to tie POA&Ms to the              system owners fully understand their roles. The draft policy
Department’s system budget request in FY 2004.                         does describe information security oversight reviews to be
                                                                       conducted at key system milestones. The certification testing
USPTO. The agency develops, implements, and manages                    conducted this past year identified areas throughout the system
POA&Ms for all systems that have identified security                   life cycle in which policies, procedures, and processes need to
weaknesses. Beginning in FY 2004, it will join the rest of the         be improved.
Commerce units in submitting its POA&Ms to the Department’s
CIO Office, for incorporation into Commerce’s consolidated             Information Security and Critical Infrastructure Protection
POA&M report to OMB.                                                   Responsibilities Are Well Integrated, and Coordination with
                                                                       Other Security Functions Is Increasing. Commerce’s critical
Responsibilities and Authorities Are Clearly Specified. The            infrastructure and information security programs are under the
responsibilities and authorities for the Department’s CIO and          authority of the Department CIO and are highly integrated. The
program officials have been clearly delineated in the new              Department’s policy delineates partnerships that must be
information security policy. Accordingly, the CIO has primary          maintained with offices under the CFO that have other
oversight of all aspects of Commerce’s information security            security responsibilities, including the Office of Security, the
program and reports to the Deputy Secretary on the status of           Office of Human Resources Management, and the Office of
information security within the Department. Operating unit heads       Acquisition Management.
have explicit responsibility for the unit’s information security.
Program officials must ensure implementation of an effective           USPTO. The agency’s draft policy addresses coordination and
security program for the systems under their responsibility.           cooperation between information security and other security
                                                                       programs, including interface with USPTO’s physical security
USPTO. Responsibilities and authorities for the agency’s CIO           and human resource offices.
and program officials are delineated in its draft Agency
Administrative Order 212-4, Information Technology Security,           National- and Mission-Critical Asset Identification Efforts
which is expected to be finalized by the end of the fiscal year. The   Continue to Be Refined. Commerce has identified its national-
CIO and the Director of USPTO have initiated a concerted effort        critical assets but has not determined the interdependencies
to improve information security, and the results of their              among them. Both the Department and USPTO have identified
commitment are evident in a considerably improved program.             and continue to refine their mission-critical assets,22 and to the
                                                                       extent that security plans for these systems follow the required
Significant IT Investments Require CIO Concurrence. No                 NIST guidance, they identify direct information-sharing
operating unit can make a major IT investment without the              interconnections with other systems. As the Department
Department CIO’s review and concurrence. The unit’s CIO must           and USPTO define and document their enterprise architectures—
approve other significant IT investment proposals.                     which show the relationship between business functions and the
                                                                       technologies and information that support them—they should
USPTO. A management council consisting of the CIO and other            identify any interrelationships with mission-critical systems.
senior executives reviews and approves the agency’s budget,
including new IT investments having a life-cycle cost of more          The Information Security Policy Has Requirements for
than $100,000.                                                         Documenting Incident Reporting Procedures. The policy
                                                                       defines the types of incidents that need to be reported and
Steps for Managing Life-Cycle Information Security Are                 requires each operating unit to submit its response procedures to
Prescribed. The Department’s new policy specifies the                  Commerce’s CIO Office for review and approval. The policy
requirements for managing information security for each system         requires operating unit computer incident response teams
life-cycle phase and makes the system owner primarily responsible      (CIRTs) and the Department’s CIRT to report incidents to the
for fulfilling these requirements. Commerce has management and         Federal Computer Incident Response Center (FedCIRC), but
oversight processes for ensuring life-cycle information security for   does not set a time frame for doing so.
all but one phase—disposal—for which it lacks an oversight
mechanism.                                                             USPTO. USPTO has draft incident response procedures that,
                                                                       while detailed and specific, do not provide a time frame for
USPTO. USPTO’s draft policy states that information security is
managed throughout a system’s life cycle, but it does not clearly      22
                                                                            USPTO has no national-critical assets.



38                                                                                    U.S. Department of Commerce/Office of Inspector General
                                                                                                           Department-Wide Management



reporting incidents to FedCIRC or require notifying OIG when         their more active role and increased accountability. The CIO is
an incident occurs.                                                  working aggressively to bring these officials up to speed, and we
                                                                     believe the CIO’s effort is essential to initiating and maintaining
Risk Assessments, Security Plans, and Testing of Security            an effective information security program. (Office of Systems
Controls Continue to Need Serious Attention. Many risk               Evaluation: OSE-16146)
assessments and security plans throughout Commerce do not
provide essential information for determining appropriate system
security controls, and others contain inaccurate or inconsistent
information. Certifications were frequently granted without          PREAWARD FINANCIAL
careful review of the documentation and with little or no testing.
                                                                     ASSISTANCE SCREENING
USPTO. The agency’s one certified and accredited system had a
thorough risk assessment and comprehensive security and              As part of our ongoing emphasis on prevention of fraud, waste,
contingency plans. Certification included extensive testing of       and abuse, we continue to work with the Department, NOAA and
security controls that identified weaknesses in the system itself,   NIST grant offices, and EDA program offices to screen the
as well as organization-wide security issues. USPTO appears to       Department’s proposed grants and cooperative agreements before
be using the same rigorous process for certifying and accrediting    they are awarded. Our screening serves two functions: it provides
its remaining systems.                                               information on whether the applicant has unresolved audit
                                                                     findings and recommendations on earlier awards, and it identifies
Information Security Awareness Training Is Being Addressed,          any negative financial or investigative history on individuals or
but Specialized Training Requirements Are Needed. The                organizations connected with a proposed award.
Department requires security awareness training for new
employees and contractors, and annual refresher training for all     During this period we screened 1,597 proposed awards. For 36 of
existing employees and contractors who have access to systems        the awards, we found major deficiencies that could affect the
containing sensitive information. The Department’s CIO appears       ability of the prospective recipients to maintain proper control
to be providing awareness refresher training to Commerce             over federal funds. On the basis of the information we provided,
employees and contractors. However, we found slow progress has       the Department delayed 35 awards and had special award
been made in providing specialized training for personnel with       conditions established for 1 award. (Office of Audits)
significant information security responsibilities, and a pervasive
lack of understanding of the objectives and requirements of
system risk assessment, security planning, contingency planning,
and certification and accreditation. USPTO is also providing the       Preaward Screening Results
mandated annual awareness refresher training.
                                                                                                                      Award
The Department CIO Continues to Make Progress in
Improving Information Security. The Department CIO has                 Results                               Number       Amount
focused intensely on improving information security and has
made significant strides. In finalizing the new information            Awards delayed to resolve concerns       35      $69,376,233
security policy, he gave Commerce a comprehensive blueprint for
securing agency information systems, and is making a
determined effort to effectively implement the security program.       Special award conditions established       1           599,430
Much remains to be done, however, particularly with regard to
ensuring that program and IT officials as well as personnel with
specialized information security roles understand their respective
responsibilities and have the knowledge and skills to carry them     NONFEDERAL AUDIT ACTIVITIES
out. The Department CIO Office is evaluating the performance of
all Commerce operating units to validate the security information    In addition to undergoing OIG-performed audits, certain
they report and assess the effectiveness of their information        recipients of Commerce financial assistance are periodically
security programs.                                                   examined by state and local government auditors and by
                                                                     independent public accountants. OMB Circular A-133, Audits of
USPTO. As mentioned earlier, USPTO is well on its way to             States, Local Governments, and Non-Profit Organizations, sets
certifying and accrediting all of its mission-critical systems and   forth the audit requirements for most of these audits. For-profit
is using sound processes to do so. But it, too, has much to do to    organizations that receive Advanced Technology Program funds
facilitate program officials’ understanding and acceptance of        from NIST are audited in accordance with Government Auditing



September 2003/Semiannual Report to Congress                                                                                       39
Department-Wide Management



Standards and NIST Program-Specific Audit Guidelines for ATP
Cooperative Agreements, issued by the Department.                       Bureau                                                  Funds

We examined 197 audit reports during this semiannual period to          EDA                                               $ 38,622,620
determine whether they contained findings related to Department
programs. For entities represented in 125 of these reports the          NIST*                                              109,741,439
Department acts as oversight agency and monitors compliance
with OMB Circular A-133 or NIST’s program-specific reporting            NTIA                                                     803,946
requirements. The other 72 reports are from entities for which
other federal agencies have oversight responsibility. We identified
                                                                        NOAA                                                    7,256,753
33 reports with findings related to the Department of Commerce.

                                                                        Office of the Secretary                                  422,211
                                                ATP
                                  OMB         Program-                  Multiagency                                        281,984,459
                                  A-133        Specific
  Report Category                 Audits       Audits      Total        Agency not identified                                   1,733,963

  Pending (April 1, 2003)            17           83        100         Total                                            $ 440,565,391

                                                                      * Includes $104,270,562 in ATP program-specific audits.
  Received                          120           60        180

                                                                      We identified a total of $2,137,268 in questioned costs and
  Examined                          113           84        197
                                                                      $456,398 in funds to be put to better use. In most reports the
                                                                      subject programs were not considered major programs; thus the
  Pending (September 30, 2003)       24           59          83      audits involved limited transaction and compliance testing
                                                                      against laws, regulations, and grant terms and conditions. The 33
The following table shows a breakdown, by bureau, of the nearly       reports with Commerce findings are listed in Appendix B-1.
$441 million in Commerce funds audited.                               (Atlanta and Denver Regional Offices of Audits)




40                                                                                U.S. Department of Commerce/Office of Inspector General
          OF INSPECTOR
      ICE              GEN
    FF                    ER

                                                    OFFICE OF
O




                            AL




                                                    INSPECTOR GENERAL
U




     S.
.




          DE
               PA
                  RT
                                                E
                     M   ENT                    C
                               O F CO M M E R


                                            IG’S TESTIMONY ON COMMERCE IT SECURITY
                               NOTES PROGRESS, COMMITMENT, BUT STILL
T
       he
       mission of
       the Office of
                                 MUCH TO BE DONE
Inspector General is to to
promote economy, efficiency,      Commerce IG Johnnie Frazier and National Aeronautics and Space Administration IG Robert
and effectiveness and detect       Cobb described the status of IT security at their respective agencies during a June 24, 2003,
and prevent waste, fraud, abuse,    hearing before the U.S. House of Representatives’ Subcommittee on Technology, Information
and mismanagement in the             Policy, Intergovernmental Relations and the Census, Committee on Government Reform.
programs and operations of the
Department of Commerce. Through                   The number of reported security incidents involving federal IT systems has skyrocketed
its audit, inspection, performance                 in recent years, prompting Congress, the administration, and inspectors general to give
evaluation, and investigative efforts,              close scrutiny to agency efforts to improve their IT security status. The Government
OIG proposes innovative ideas and                   Information Security Reform Act has for the past 2 years required IGs to conduct
constructive solutions that lead to                 independent evaluations of their agencies’ IT security programs. This requirement
positive internal and external changes              continued in fiscal year 2003 with enactment of the Federal Information Security
for the U.S. Department of Commerce.                Management Act, which replaced GISRA.
By providing timely, useful, and
reliable information and advice to
departmental officials, the                       TESTIMONY CHARTS IMPROVEMENTS
administration, Congress, and the                UNDER GISRA
public, OIG's work helps improve
the Department's management                  IG Frazier testified that 2 years ago, when he addressed the subcommittee about Commerce
and operations as well as its              IT security, the Department exhibited the six common IT security weaknesses identified by
delivery of services to the              OMB: (1) lack of senior management attention to IT security; (2) poor security education and
public.                                awareness among employees; (3) failure to fully fund and integrate security into the capital
                                    planning and investment control process; (4) failure to ensure that contractor services are adequately
                                secure; (5) failure to detect, report, and share information on vulnerabilities; and (6) lack of IT security
                            performance measures. As a result of these and other weaknesses, OIG identified information security as a
                       top management challenge for Commerce and recommended that it be reported as a material weakness in fiscal
              year 2001 and again in FY 2002,23 a recommendation the Department followed. Mr. Frazier reported that the Department
has improved in these six areas identified by OMB, but significant challenges remain.

Senior management attention to IT security. Prior to GISRA, senior Department officials gave little regard to IT security. As a result,
Commerce’s IT policy was incomplete, out of date, and not enforced; systems had not been assessed for vulnerabilities nor certified as
secure. However, the Secretary of Commerce has since directed top officials to give high priority and sufficient resources to IT security
and to stress their leadership role in correcting deficiencies identified in OIG and General Accounting Office evaluations. Senior
Commerce managers were given specific responsibility for protecting the security of operations and assets they control. Our subsequent
reviews have noted this commitment at Commerce operating units, although some have been slower than others in giving the needed
level of attention.

Security education and awareness. In FY 2001, security training at Commerce was not conducted on a rigorous or ongoing basis. The
operating units have since made significant progress in providing awareness training to both employees and contractors. However, training

23
  OIG again recommended that IT security be reported as a material weakness in FY 2003, and as we went to press, the Department indicated that it
plans to do so.




September 2003/Semiannual Report to Congress                                                                                               41
Office of Inspector General



for personnel with significant IT security responsibilities (e.g.,     HIGHLIGHTS OF THE OFFICE
system administrators, IT security officers) remains inadequate.
                                                                       OF INVESTIGATIONS
Funding and integrating security into the capital planning and
investment control process. Commerce ensures security is               The Office of Investigations (OI) systematically examines
planned at the earliest stages of a system’s life cycle by requiring   suspected or alleged fraud, waste, abuse, and mismanagement by
Department CIO concurrence for IT investment decisions                 Department of Commerce employees, contractors, recipients of
affecting all major systems. OIG reviews have determined that          financial assistance, and others connected to the Department’s
capital asset plans developed by most operating units need to          programs and operations. These investigations typically
better identify security risks throughout a system’s life cycle so     culminate in criminal and/or civil prosecution, as well as
that security expenditures can be better developed and justified.      administrative sanctions for violation of federal regulations and
                                                                       the Standards of Ethical Conduct for Employees of the Executive
Ensuring that contractor services are adequately secure. OIG           Branch. With a staff of criminal investigators deployed
evaluations of IT service contracts revealed insufficient              throughout the United States, OI works in conjunction with the
federal and departmental guidance for ensuring that contract           Department of Justice and the Federal Bureau of Investigation to
documents contain adequate IT security provisions. At our              investigate and prosecute those engaged in activities designed to
recommendation, the Department has drafted a standard IT               defraud Commerce and its component agencies.
security contract provision.
                                                                       Section 812 of the Homeland Security Act of 2002 (P.L. 107-
Detecting, reporting, and sharing information on                       296), recently passed by Congress and signed by the President,
vulnerabilities. In FY 2001, OIG found that only 4 of 14               will, when implemented, provide criminal investigators in this
operating units had incident response capability, and that the         and other OIGs headed by presidentially appointed inspectors
Department’s policy for reporting IT security incidents did not        general, with statutory law enforcement authority to carry
specify notification of OIG. The Department has since                  firearms, make arrests, and execute search warrants. Until
established a computer incident response team to support               then, investigators will retain law enforcement powers as special
operating units that had no response capability.                       deputy U.S. marshals under a memorandum of understanding
                                                                       with the Department of Justice and the Federal Bureau
IT security performance measures. Two years ago, OIG reviews           of Investigation.
found that nearly two-thirds of the Department’s systems lacked
risk assessments, almost half did not have a security plan, and        OI continually seeks to reinvent itself and its methods for
more than 90 percent were not certified or accredited. But by the      preventing and detecting fraud, waste, and abuse by periodically
end of fiscal year 2002, 94 percent of systems had risk                evaluating its operations to ensure that they are optimally
assessments, 96 percent had security plans, and 77 percent were        structured to protect the Department’s resources and the integrity
certified and accredited.                                              of its programs. These reviews help OI improve the timeliness of
                                                                       its work, enhance its collaboration with Department employees
Mr. Frazier noted that, while this track record is impressive,         and program officials, and maximize the use of its limited
subsequent OIG evaluations suggest that the accreditation and          resources through greater interaction with other OIG
certification process is sometimes being shortcut: risk                components. Within Commerce, OI has assumed a leadership
assessments and security plans are sometimes inadequate, and           role among its law enforcement peers from other bureaus, and is
controls go untested, all of which undermines the reliability of       thus addressing issues that could potentially impact investigative
accreditation and certification in assuring that effective security    operations Department-wide.
controls are in place.

                                                                       SIGNIFICANT INVESTIGATIVE
THE DEPARTMENT’S STATUS                                                ACTIVITIES DURING THIS
AT FY 2003 YEAR-END                                                    SEMIANNUAL PERIOD

Since Mr. Frazier’s testimony, OIG has completed its FY 2003           NTIA SENIOR OFFICIAL COUNSELED ON
independent evaluations of IT security under FISMA, which              ETHICS REQUIREMENTS
update the Department’s security status described by Mr. Frazier
at the subcommittee hearing. Summaries of our findings appear          OIG investigated allegations that a senior NTIA official
on pages 29 and 37 of this semiannual report.                          improperly accepted a gift from telecommunications industry
                                                                       lobbyists in the form of a party at her home, and that the gift had




42                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                               Office of Inspector General



influenced the agency’s official position on a policy matter of      based on his acceptance of an illegal gratuity. The conviction
interest to the companies that hosted the party. Our investigation   arose from a joint OIG/FBI investigation that disclosed he had
did not substantiate the charge that the performance of official     misused his position to solicit and receive at least $1,750 from
duties was improperly influenced by the gift. It did, however,       four vendors in exchange for favorable treatment in purchasing
disclose several violations of the Standards of Ethical Conduct on   promotional items for the 2000 Decennial Census campaign. On
her part, including prohibitions against accepting gifts from        May 30, 2003, the defendant was sentenced in U.S. District Court
persons or entities whose interests may be substantially affected    for the Southern District of Ohio to 4 months’ home confinement
by the performance or nonperformance of the employee’s duties,       with strictly monitored work and medical release, 3 years’
and engaging in or being party to actions that create the            probation, and a $1,000 fine. (Washington Field Office)
appearance of improper conduct. The official, who has since left
federal service, was counseled about her responsibility for
maintaining the highest levels of integrity, including taking all    FORMER NOAA EMPLOYEE SENTENCED
precautions necessary to avoid any appearance of impropriety.        FOR THEFT OF GOVERNMENT PROPERTY
(Washington Field Office)
                                                                     An OIG investigation disclosed that a former NOAA program
                                                                     support assistant, who also served as the official timekeeper for
SENIOR MBDA OFFICIAL REMINDED OF                                     her office, altered her time and attendance submissions after they
ETHICS OBLIGATIONS                                                   were certified by her supervisor, which resulted in an
                                                                     overpayment of more than $18,000. We also found that she had
OIG initiated an investigation of a senior MBDA official after       misused a government cellular telephone to make personal calls
receiving allegations that the official had improperly accepted      costing more than $3,000. In July 2003 the former employee
gifts and violated government travel and procurement                 pleaded guilty to a one-count information charging theft of
regulations. Our investigation substantiated only one instance of    government property, and on September 4, 2003, was sentenced
impropriety—the official’s receipt of an unsolicited gift of Cuban   in U.S. District Court for the District of Columbia to 3 years’
cigars, valued at approximately $100, from a person who had          probation and full restitution in the amount of $21,716. (Silver
business dealings with the Department. On advice from the            Spring Resident Office)
Office of General Counsel, the official subsequently paid the
donor the fair market value of the cigars. Based on our findings,
the MBDA official was reminded of the need for strict adherence      FORMER NOAA CONTRACTOR
to the Standards of Ethical Conduct for Employees of the             EMPLOYEE SENTENCED FOR THEFT OF
Executive Branch regarding the receipt of gifts, particularly from   GOVERNMENT PROPERTY
prohibited sources. (Silver Spring Resident Office)
                                                                     In our March 2003 issue (page 40) we reported that special agents
                                                                     from the Commerce and General Services Administration OIGs
FORMER NATIONAL WEATHER SERVICE                                      arrested a NOAA contractor employee after discovering a scheme
EMPLOYEE SENTENCED                                                   through which he allegedly charged more than $6,000 in
                                                                     fraudulent purchases to a GSA fleet vehicle fuel card. In July
In our March 2003 Semiannual Report (page 40) we reported the        2003 the employee pleaded guilty to one count of theft of
theft conviction of a former National Weather Service employee,      government property in U.S. District Court for the District of
who had misused a government purchase card to acquire more           Maryland. On August 13, 2003, he was sentenced to 4 months of
than $70,000 worth of items for personal use. On June 20, 2003,      incarceration in a halfway house, 3 years’ probation, restitution in
the defendant was sentenced in U.S. District Court for the Eastern   the amount of $6,342, and 120 hours of community service. In
District of Virginia to 5 months’ imprisonment and 5 months’         addition, the individual’s employment with the contractor was
home detention/electronic monitoring, and was ordered to pay         terminated. (Silver Spring Resident Office)
restitution to the government in the amount of $71,052.
(Washington Field Office)
                                                                     FORMER USPTO EMPLOYEE SENTENCED
                                                                     FOR THEFT OF GOVERNMENT PROPERTY
FORMER CENSUS EMPLOYEE SENTENCED
FOR RECEIVING A GRATUITY                                             In our March 2003 Semiannual Report (page 40) we reported the
                                                                     theft conviction of a former USPTO employee who had used her
In our March 2003 issue (page 39) we reported the conviction of      supervisor’s government purchase card number to make
a former community partnership specialist in the Census              unauthorized purchases totaling more than $2,000. On April 8,
Bureau’s Dayton, Ohio, regional office under 18 USC §201,            2003, the defendant was sentenced in U.S. District Court for the



September 2003/Semiannual Report to Congress                                                                                        43
Office of Inspector General



Eastern District of Virginia to 3 years’ probation and ordered to      FORMER NWS EMPLOYEE ACCEPTED
make restitution to the government in the amount of $2,133.            INTO PRETRIAL DIVERSION PROGRAM
(Silver Spring Resident Office)
                                                                       An OIG investigation disclosed that a former purchasing agent
                                                                       with the National Severe Storms Laboratory had used a
FORMER EMPLOYEE SENTENCED FOR                                          government purchase card to charge $8,000 worth of personal
MISREPRESENTATION OF STATUS                                            items. She returned items totaling approximately $4,700 to the
                                                                       government and was terminated from federal employment.
As reported in our March 2003 issue (page 41), a former OIG            Appearing in the U.S. District Court for the Western District of
employee now working in private industry pleaded guilty to a           Oklahoma in September 2003, the employee agreed to pretrial
one-count misdemeanor charge of violating 18 USC §712 after            diversion, received 6 months’ probation and was required to pay
our investigation confirmed that he had falsely represented            restitution to the government in the amount of $2,104. (Denver
himself as an OIG employee in an attempt to obtain proprietary         Resident Office)
information from a business competitor. On April 2, 2003, he was
sentenced in U.S. District Court for the District of Columbia to a
$1,000 fine, 2 years’ probation, and 50 hours of community             FORMER CENSUS EMPLOYEE
service. (Silver Spring Resident Office)                               PLEADS GUILTY TO THEFT OF
                                                                       GOVERNMENT PROPERTY

FORMER USPTO EMPLOYEE SENTENCED                                        A joint OIG/FBI investigation disclosed that a former Census
FOR FRAUDULENT USE OF A SOCIAL                                         payroll supervisor had embezzled approximately $2,500 from the
SECURITY NUMBER                                                        Bureau of the Census by issuing paychecks in the names of
                                                                       several former Census employees, which she then deposited into
OIG investigated allegations that a USPTO employee unlawfully          accounts belonging to her and her husband. The former employee
obtained the social security number and date of birth of a fellow      was indicted in U.S. District Court for the Middle District of
employee and used that information to open several credit card         North Carolina on two counts of theft of government property.
accounts. Our investigation revealed that the employee had             On July 14, 2003, OIG and FBI special agents arrested her in
obtained his colleague’s vital data from the colleague’s desk          Stafford County, Virginia. Under the terms of a plea agreement,
drawer at a USPTO office in Crystal City, Virginia. Once the           the former employee entered a guilty plea of one count of theft of
credit cards were issued, he used them to make purchases and           government property on September 8, 2003. Sentencing is
cash withdrawals. On May 22, 2003, the employee pleaded guilty         scheduled for December 2003. (Silver Spring Resident Office)
in the U.S. District Court for the Eastern District of Virginia to a
one-count criminal information charging fraudulent use of a
social security number. On September 12, 2003, he was                  TIMEKEEPER ARRESTED FOR
sentenced to 2 years’ probation, and ordered to pay a $5,000 fine.     OVERTIME FRAUD
The employee was also removed from his position at USPTO.
(Silver Spring Resident Office)                                        An administrative employee in the Office of the Secretary was
                                                                       arrested and charged with first degree theft under the D.C.
                                                                       Criminal Code after an OIG investigation revealed that she had
FORMER GSA EMPLOYEE SENTENCED                                          used her position as timekeeper to obtain nearly $3,300 in
FOR CREDIT CARD THEFT                                                  overtime pay for hours she had not worked. As a result of the
                                                                       investigation, in May 2003 the Office of the Secretary distributed
A joint Commerce/GSA OIG investigation established that a              a memorandum to its staff requiring all employees to (1) obtain a
former GSA contractor employee, whose duties involved input of         supervisor’s signature on their time and attendance sheet, and (2)
purchase order data submitted by federal agencies, illegally           to properly receive overtime compensation, obtain signed
obtained and used Commerce government purchase card                    Authorization for Paid Overtime and Compensatory Time forms
numbers to acquire goods for her personal use. The individual          for each occasion of overtime and submit the forms with the
was arrested in Atlanta on August 25, 2003, by an OIG special          appropriate time sheets. The memorandum also prohibited
agent and the Atlanta Police Department and indicted on six            timekeepers from processing their own time sheets. (Washington
counts of credit card theft. She pleaded guilty to one count of        Field Office)
credit card theft and on September 30 was sentenced in Georgia
state criminal court to 3 years’ probation and 40 hours of
community service and ordered to pay restitution to the
government in the amount of $732.36. (Atlanta Field Office)



44                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                                                   Office of Inspector General



RLF GRANT FUND ADMINISTRATORS                                            INVESTIGATIVE STATISTICAL HIGHLIGHTS
SUSPENDED FROM FEDERAL                                                   FOR THIS PERIOD
PROCUREMENT AND
NONPROCUREMENT TRANSACTIONS                                                Criminal Investigative Activities

In our last issue (March 2003, page 39) we reported the                    Arrests . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
indictment and arrest of four individuals in Massachusetts for
misuse of EDA and other federal grant funds administered by a
municipal economic development organization. Among other                   Indictments and informations . . . . . . . . . . . . . . . . . . . . . . .4
things, the organization operates an EDA-funded revolving loan
fund and a Small Business Administration loan program. On                  Convictions and pretrial diversions . . . . . . . . . . . . . . . . . . .5
April 25, 2003, all four individuals were prohibited from
participating in any procurement or nonprocurement transactions            Personnel actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
with the executive branch of the federal government, based on the
88-count indictment charging conspiracy, federal program fraud,            Fines, restitutions, judgments and other
false statements, and money laundering. (Washington Field                  civil and administrative recoveries . . . . . . . . . . . . .$111,605
Office)
                                                                           Allegations Processed
INVESTIGATION PROMPTS PROGRAM
                                                                           Accepted for investigation . . . . . . . . . . . . . . . . . . . . . . . . .46
CHANGES IN OFFICE OF THE SECRETARY
PROCUREMENT MANAGEMENT
                                                                           Referred to operating units . . . . . . . . . . . . . . . . . . . . . . . .56
An OIG investigation into alleged irregularities in a Department
contract for elevator maintenance prompted the Office of the               Evaluated but not accepted for investigation
Secretary to require, as of April 2003, that its contracting officer’s     or referral . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14
technical representatives receive training regarding their roles
and responsibilities, job-related ethics, and conflicts of interest,       TOTAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .116
and that all members of procurement evaluation teams sign
conflict-of-interest and nondisclosure statements. (Washington
Field Office)

                                                                         THE PRESIDENT’S COUNCIL
NOAA CONTRACTOR FORCED TO PAY                                            ON INTEGRITY AND
EMPLOYEES’ BENEFITS
                                                                         EFFICIENCY
An OIG investigation disclosed that a NOAA janitorial contractor
failed to pay health and welfare benefits owed to seven of its           The presidentially appointed IGs work together, through the
employees. As a result of the investigation, the contractor remitted     President’s Council on Integrity and Efficiency (PCIE), to
a total of $8,139 as full payment of their past-due benefits. The        address integrity, economy, and effectiveness issues. Likewise,
contractor also agreed to pay correct wages and benefits as              the IGs of designated federal entities work together to coordinate
stipulated in the NOAA contract. (Denver Resident Office)                their activities through the Executive Council on Integrity and
                                                                         Efficiency (ECIE). Separately and together these councils
                                                                         promote collaboration on issues that transcend individual federal
                                                                         agencies and work to enhance the professionalism and
                                                                         effectiveness of OIG personnel throughout the government.

                                                                         This year in its combined annual report to the President, the
                                                                         councils offered impressive yearly statistics as well as a
                                                                         combined assessment of their accomplishments for FY 2002,
                                                                         reflecting the work of more than 11,000 OIG employees whose
                                                                         combined efforts, taken together, produced
                                                                              ■   potential savings of nearly $72 billion,
                                                                              ■   nearly 10,700 successful criminal prosecutions,



September 2003/Semiannual Report to Congress                                                                                                                    45
Office of Inspector General



    ■   suspensions or debarments of more than 7,600                   agency travel card programs. The guide outlines common
        individuals or businesses,                                     problems, preventive measures, and proven solutions as well as
    ■   almost 2,200 civil or personnel actions,                       best practices identified in the work of 25 OIGs that have
                                                                       reviewed travel card programs.
    ■   more than 5,700 indictments and criminal informations,
    ■   more than 234,000 complaints processed, and                    A more broadly based tool is the online Directory of OIG Reports
    ■   more than 90 testimonies before Congress.                      on both purchase and travel card use. The directory—a
                                                                       searchable database of 125 reports—serves as a quick and useful
Reaching across agency boundaries, PCIE and ECIE provide               resource to anyone seeking to review or improve management of
leadership to the IG community, offering a forum for addressing        purchase and travel card programs and is available at the
shared concerns. Six standing committees are maintained by the         PCIE/ECIE web site, IGnet.
two councils to examine crosscutting issues and assist ongoing
efforts such as developing core competencies to standardize            Another project, a survey of OIG inspection and evaluation units,
professional levels throughout the IG community. Commerce              is attempting to profile the 24 federal OIGs that have such units.
Inspector General Johnnie Frazier is a member of PCIE and chair        The purpose of this 2003 survey is to update what we know about
of the PCIE Inspection and Evaluation Committee.                       the inspections and evaluations community and share information
                                                                       about operations, priorities, work products, and processes. The
                                                                       survey will highlight the capabilities of the I&E community,
                                                                       promote the sharing of ideas and techniques, and serve as a tool
INSPECTION AND                                                         to promote the value of the I&E concept, particularly to new
EVALUATION COMMITTEE                                                   inspectors general. The survey will also help identify a broader
                                                                       range of possibilities for joint OIG reviews and crosscutting
A primary function of the Inspection and Evaluation (I&E)              issues of concern to multiple OIGs.
Committee is to share ideas and develop better ways to
communicate inspection and evaluation policies and procedures          Updating the Quality Standards for Inspections is another
as well as findings and address cross-agency issues. By sharing        significant committee project. With OIGs’ use of inspections to
best practices, training, and professional insights, and undertaking   effectively review and improve their agency’s operations, it is
interagency projects, members of the committee more efficiently        increasingly important to ensure that standards of quality are
and effectively conduct the business of their own units.               consistent in the inspection process. PCIE developed, in 1993, a
                                                                       set of standards to guide the conduct of inspection work. In
Last year’s publication of A Practical Guide for Reviewing             developing Quality Standards for Inspections, it was necessary to
Government Purchase Card Programs was hailed by the IG                 reconcile several divergent points of view concerning the content,
community as a valuable reference, offering those new to the           application, and need for inspections standards. The updated
profession handy access to years of accumulated experience.            Quality Standards for Inspections will continue that tradition—
This year the committee is working to produce a guide to               reflecting the consensus expressed by members of the IG
reviewing travel card programs, a companion compilation of             community, highlighting best practices as well as the most
solid advice from published OIG reports from multiple agencies.        effective and efficient processes and procedures. Consistent
This volume will serve as a convenient and experience-based            application of the standards will protect the OIG community’s
reference guide for conducting inspections and evaluations of          reputation for impartiality, reliability, and credibility.




46                                                                                U.S. Department of Commerce/Office of Inspector General
TABLES AND STATISTICS

STATISTICAL OVERVIEW
  TABLES                                                                                                                                                                                PAGE

  1. Audit Resolution Follow-Up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47

  2. Audit Statistical Highlights for this Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .48

  3. Audits with Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49

  4. Audits with Recommendations that Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49

  APPENDIXES

  A. Report Types this Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50

        A-1. Performance Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50

        A-2. Financial-Related Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .51

        A-3. Internal Quality Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .51

        A-4. Inspections and Systems Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .52

  B. Processed Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .53

        B-1. Processed Financial-Related Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .54



AUDIT RESOLUTION AND                                                                                 TABLE 1. AUDIT RESOLUTION FOLLOW-UP
FOLLOW-UP                                                                                               Report Category                       Modifications                        Appeals
The Inspector General Act Amendments of 1988 require us to
present in this report those audits issued before the beginning of                                      Actions pending
the reporting period (April 1, 2003) for which no management                                            (April 1, 2003)                                  0                              13
decision had been made by the end of the period (September 30,
2003). There are no audit reports remaining unresolved in excess                                        Submissions                                      0                              17
of 6 months for this reporting period (see page 57).
                                                                                                        Decisions                                        0                               9
Department Administrative Order 213-5, Audit Resolution and
Follow-up, provides procedures for management to request a                                              Actions pending
modification to an approved audit action plan or for a financial                                        (September 30, 2003)                             0                              21
assistance recipient to appeal an audit resolution determination.
The following table summarizes modification and appeal activity
during the reporting period.



September 2003/Semiannual Report to Congress                                                                                                                                                 47
Office of Inspector General



TABLE 2. AUDIT AND INSPECTION                                                      of the audit, such cost is not supported by adequate
STATISTICAL HIGHLIGHTS FOR THIS                                                    documentation; or (3) a finding that an expenditure of funds for
PERIOD                                                                             the intended purpose is unnecessary or unreasonable.

    Questioned costs . . . . . . . . . . . . . . . . . . . . . . . . .$9,602,197   Unsupported cost: a cost that, at the time of the audit, is not
                                                                                   supported by adequate documentation. Questioned costs include
    Value of audit recommendations that                                            unsupported costs.
    funds be put to better use . . . . . . . . . . . . . . . . . .15,129,418
                                                                                   Recommendation that funds be put to better use: an OIG
                                                                                   recommendation that funds could be used more efficiently if
    Value of audit recommendations                                                 Commerce management took action to implement and complete
    agreed to by management . . . . . . . . . . . . . . . . . .23,654,020          the recommendation, including (1) reductions in outlays; (2)
                                                                                   deobligation of funds from programs or operations; (3)
                                                                                   withdrawal of interest subsidy costs on loans or loan guarantees,
                                                                                   insurance, or bonds; (4) costs not incurred by implementing
                                                                                   recommended improvements related to Commerce, a contractor,
DEFINITIONS OF TERMS USED                                                          or a grantee; (5) avoidance of unnecessary expenditures
                                                                                   identified in preaward reviews of contracts or grant agreements;
IN THE TABLES                                                                      or (6) any other savings specifically identified.

Questioned cost: a cost questioned by OIG because of (1) an                        Management decision: management’s evaluation of the findings
alleged violation of a provision of a law, regulation, contract,                   and recommendations included in the audit report and the
grant, cooperative agreement, or other agreement or document                       issuance of a final decision by management concerning
governing the expenditure of funds; (2) a finding that, at the time                its response.



TABLE 3. AUDITS WITH QUESTIONED COSTS

    Report Category                                                                Number           Questioned Costs           Unsupported Costs

    A. Reports for which no management decision had been
       made by the beginning of the reporting period                                16                 $ 8,464,702                   $1,673,845

    B. Reports issued during the reporting period                                   32                   9,602,197                     1,907,114

         Total reports (A+B) requiring a management decision
         during the reporting period1                                               48                  18,066,899                     3,580,959

    C. Reports for which a management decision was made
       during the reporting period2                                                 29                   8,975,049                     1,970,446

         i. Value of disallowed costs                                                                    7,996,801                     6,041,856

         ii. Value of costs not disallowed                                                               1,185,176                         73,672

    D. Reports for which no management decision had been
       made by the end of the reporting period                                      19                   9,091,850                     1,610,513

Six audit reports included in this table are also included among reports with recommendations that funds be put to better use (see table 4).
1


However, the dollar amounts do not overlap.
2
 In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original
recommendations.



48                                                                                            U.S. Department of Commerce/Office of Inspector General
                                                                                                                              Office of Inspector General



TABLE 4. AUDITS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

    Report Category                                                                                                      Number              Value

    A. Reports for which no management decision had been made by the
       beginning of the reporting period                                                                                      9         $ 14,454,402

    B. Reports issued during the reporting period                                                                            10            15,129,418

    Total reports (A+B) requiring a management decision during the reporting period1                                         19            29,583,820

    C. Reports for which a management decision was made during the reporting period2                                         11            15,908,235

        i. Value of recommendations agreed to by management                                                                                15,657,219

        ii. Value of recommendations not agreed to by management                                                                              306,447

    D. Reports for which no management decision had been made by the end of the reporting period                              8            13,675,585

Six audit reports included in this table are also included in the reports with questioned costs (see table 3). However, the dollar amounts do not overlap.
1



In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original recommendations.
2




APPENDIX A. REPORT TYPES
THIS PERIOD

                                          Number of        Appendix
    Type                                   Reports          Number

    Performance audits                            7             A-1

    Financial-related audits                      8             A-2

    Internal quality reviews                      5             A-3

    Inspections and systems evaluations           9             A-4

    Total                                       32




September 2003/Semiannual Report to Congress                                                                                                         49
Office of Inspector General



APPENDIX A-1. PERFORMANCE AUDITS

                                                                                                                       Funds to
                                                                                                           Date        Be Put to
  Report Title                                                                    Report Number           Issued      Better Use

  Economics and Statistics Administration

  Census Bureau’s National Processing Center Needs to Improve
  Controls Over Government Bills of Lading                                       ESD-14911-3-0001        09/30/03    $2,045,304*

  National Institute of Standards and Technology

  Award for Five-Axis Machining Center Under RFQ SB1341-02-Q-0550
  Justified but Procurement Process Needs Improvement                            STD-15839-3-0001        09/30/03               —

  National Oceanic and Atmospheric Administration

  Process for Reducing the Critical Hydrographic Survey Backlog
  Lacks Key Management Controls                                                  STD-15120-3-0001        07/28/03       6,500,000

  Environmental Technology Laboratory Needs to Improve Internal
  Controls for Accounting and Funds Management                                  BTD-14852-3-0001         09/30/03               —

  Purchase Card Program at the Environmental Technology
  Laboratory Needs Heightened Monitoring and Strengthened Internal Controls     BTD-15139-3-0001         09/30/03               —

  Improvements Needed in the Reporting of Performance Measures
  Related to Goals for Advancing Short-Term Warnings and Implementing
  Seasonal to Interannual Climate Forecasts                                      FSD-15643-3-0001        09/30/03               —

  Recent Gear Protocols Should Improve NMFS Groundfish
  Bottom-Trawl Survey but More Should Be Done                                    STD-15750-3-0001        09/30/03               —

* Listed as questioned costs in audit report.




50                                                                            U.S. Department of Commerce/Office of Inspector General
                                                                                                  Office of Inspector General



APPENDIX A-2. FINANCIAL-RELATED AUDITS

                                                                                Value of
                                                                                Funds to      Federal        Federal
                                                                    Date       Be Put to      Amount         Amount
 Report Title                                   Report Number      Issued      Better Use    Questioned    Unsupported

 Economic Development Administration

 High Plains Development
 Authority, Inc., MT                           DEN-15180-3-0001    07/22/03    $1,426,242

 Southside Planning District
 Commission, VA                                ATL-15985-3-0001    09/11/03     1,136,348       $57,196        $48,447

 National Institute of Standards and Technology

 Computer Aided Surgery, Inc., NY              ATL-16095-3-0001    07/25/03      205,126

 Massachusetts MEP                             DEN-14422-3-0001    08/27/03                   2,725,596

 W. Brandt Goldsworthy &
 Associates, Inc., CA                          ATL-15922-3-0002    09/04/03                     613,097        613,097

 Texas Engineering
 Extension Service                             DEN-14401-3-0001    09/24/03     3,360,000       771,555

 KLA-Tencor Corporation, CA                    DEN-14219-3-0002    09/30/03                     702,022

 KLA-Tencor Corporation, CA                    DEN-14219-3-0003    09/30/03                   2,595,463




APPENDIX A-3. INTERNAL QUALITY REVIEWS

 OIG Division                                                                         Report Number         Date Issued

 Business and Trade Audits Division, Science and Technology Audits Division,
 and Economics and Statistics Audits Division                                           DEN-15928-1            8/11/03

 Financial Statements Audits Division                                                   DEN-15928-2            8/05/03

 Atlanta Regional Office of Audits                                                      DEN-15928-3            8/06/03

 Seattle Regional Office of Audits                                                      DEN-15928-4            8/11/03

 Denver Regional Office of Audits                                                      HQA-15928-5             8/04/03




September 2003/Semiannual Report to Congress                                                                           51
Office of Inspector General



APPENDIX A-4. INSPECTIONS AND SYSTEMS EVALUATIONS

  Report Title                                                                  Report Number                  Date Issued

  Bureau of Industry and Security

  Administrative Matters Concerning BIS’ Export Enforcement                       IPE-15155-2                     6/4/03

  Economics and Statistics Administration

  MAF/TIGER Redesign Project Needs Management Improvements
  to Meet Its Decennial Goals and Cost Objective                                   OSE-15725                     9/30/03

  International Trade Administration

  Generally Sound Operations at Commercial Service Greece Are
  Compromised by Key Weaknesses                                                     IPE-15804                    9/30/03

  National Oceanic and Atmospheric Administration

  Acquisition of NEXRAD Transition Power Source Marred by
  Management, Technical, and Contractual Problems                                  OSE-15676                     9/30/03

  Stronger Security Controls Needed to Protect NESDIS’
  Headquarters Local Area Network                                                 OSE-15996-1                    9/22/03

  Additional Management Attention Needed to Ensure Implementation of
  Effective Security Controls to Protect NESDIS’ Research Data System             OSE-15996-2                    9/22/03

  Stronger Security Controls Needed to Protect NMFS Information
  Technology Systems                                                               OSE-15693                     9/17/03

  U.S. Patent and Trademark Office

  OIG Review of Complaints and Concerns Related to USPTO’s
  Handling of Patent Applications                                                   IPE-16083                    9/30/03

  Office of the Secretary

  Independent Evaluation of the Department of Commerce’s
  Information Security Program Under the Federal Information
  Security Management Act                                                          OSE-16146                     9/22/03




52                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                                                                                                       Office of Inspector General



APPENDIX B. PROCESSED REPORTS

  The Office of Inspector General reviewed and accepted 197 financial-related audit reports prepared by independent public
  accountants and local, state, and other federal auditors. The reports processed with questioned costs, recommendations that funds
  be put to better use, and/or nonfinancial recommendations are listed in Appendix B-1.

  Agency                                                                                                                                                                                       Audits

  Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .56

  National Institute of Standards and Technology* . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .92

  National Telecommunications and Information Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4

  National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8

  Office of the Secretary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

  Multiagency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33

  Agency not identified . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3

  Total . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .197

*Includes 84 ATP program-specific audits.




September 2003/Semiannual Report to Congress                                                                                                                                                         53
Office of Inspector General



APPENDIX B 1. PROCESSED FINANCIAL-RELATED AUDITS

                                                                             Value of
                                                                             Funds to      Federal          Federal
                                                                  Date      Be Put to      Amount           Amount
  Report Title                                 Report Number     Issued     Better Use    Questioned      Unsupported

  Economic Development Administration

  City of Picayune, MS                        ATL-09999-3-1356   06/11/03                   $75,897

  Economic Development Fund of
  Northern Vermont, Inc                       ATL-09999-3-1372   06/11/03   $234,340

  Operation Hope, Inc., CA                    ATL-09999-3-1424   06/11/03                      9,105

  The Oceanic Institute and Subsidiary, HI    ATL-99999-3-1385   06/11/03                        562

  Native American Development
  Corporation, MT                             ATL-09999-3-1468   09/16/03                   112,500

  City of Blackfoot, ID                       ATL-09999-3-1550   09/16/03                    92,805

  Idaho Innovation Center                     ATL-09999-3-1460   09/30/03    157,539

  Ark-Tex Council of Governments, TX          ATL-09999-3-1525   09/30/03

  National Institute of Standards and Technology

  Adept Technology, Inc., CA                  ATL-09999-3-1203   05/05/03                   122,678           $94,822

  Sarnoff Corporation, NJ                     ATL-09999-3-1318   05/05/03                    27,045

  Industrial Virtual Reality, Inc., IL        ATL-09999-3-1435   06/11/03                    11,901             11,901

  Zyvex Corp., TX                             ATL-09999-3-1422   06/16/03                      5,114             5,114

  Perceptron, Inc., MI                        ATL-09999-3-1288   06/25/03     27,591         17,425             17,425

  Applied Biosystems, CA                      ATL-09999-3-1428   06/26/03                    43,570             43,570

  Ford Motor Company, MI                      ATL-09999-3-0676   06/27/03

  General Motors Corporation, MI              ATL-09999-3-0906   06/27/03

  General Motors Corporation, MI              ATL-09999-3-0907   06/27/03

  Electroplating Chemicals and Services, NY   DEN-09999-3-1166   07/02/03                   211,363           211,363

  Electroplating Chemicals and Services, NY   DEN-09999-3-1167   07/02/03                      5,699             5,699



54                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                               Office of Inspector General



APPENDIX B 1. PROCESSED FINANCIAL-RELATED AUDITS (CONT’D.)

                                                                              Value of
                                                                              Funds to     Federal        Federal
                                                                   Date      Be Put to     Amount         Amount
 Report Title                                   Report Number     Issued     Better Use   Questioned    Unsupported

 National Institute of Standards and Technology (cont’d.)

 Embrex Inc., NC                               ATL-09999-3-1290   07/09/03                $ 48,743          $ 48,743

 Honeywell International, Inc., MN             ATL-09999-3-1296   07/09/03                   5,512             5,512

 GE Global Research, NY                        ATL-09999-3-1486   07/09/03                  51,074            51,074

 Coventor, Inc., NC                            ATL-09999-3-1304   08/08/03                  53,133            53,133

 General Motors Corporation, MI                ATL-09999-3-0726   08/12/03

 Apelon, Inc., CT                              ATL-09999-3-1487   08/12/03    $36,928       12,452            12,452

 Cell Based Delivery, Inc., RI                 ATL-09999-3-1421   08/14/03                 122,516            69,514

 Ximerex, Incorporated, NE                     DEN-09999-3-1331   08/18/03                  57,361            57,361

 M & M Precision Systems Corporation, OH       DEN-09999-3-1417   08/25/03                 140,738

 i2 Federal, Inc., TX                          ATL-09999-3-1533   09/30/03                 152,887           152,887

 National Oceanic and Atmospheric Administration

 The Oceanic Institute and Subsidiary, HI      ATL-09999-3-1385   06/11/03                  20,279

 National Telecommunications and Information Administration

 Blue Ridge Public Television, Inc., VA        ATL-09999-3-1386   06/11/03                 405,000           405,000

 Monroe Chamber of Commerce, LA                ATL-09999-3-1508   09/30/03                 323,820

 Office of the Secretary

 Minority Access, Inc., MD                     ATL-09999-3-1524   09/30/03                   8,089




September 2003/Semiannual Report to Congress                                                                        55
REPORTING REQUIREMENTS

The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The requirements are listed
below and indexed to the applicable pages of this report.

  Section                                        Topic                                                                                                                         Page

  4(a)(2) . . . . . . . . . . . . . . . . . . . . .Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .56

  5(a)(1) . . . . . . . . . . . . . . . . . . . . .Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16-40

  5(a)(2) . . . . . . . . . . . . . . . . . . . . .Significant Recommendations for Corrective Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16-40

  5(a)(3) . . . . . . . . . . . . . . . . . . . . .Prior Significant Recommendations Unimplemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .56

  5(a)(4) . . . . . . . . . . . . . . . . . . . . .Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16-40

  5(a)(5) and 6(b)(2) . . . . . . . . . . . Information or Assistance Refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .42-45

  5(a)(6) . . . . . . . . . . . . . . . . . . . . .Listing of Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47-55

  5(a)(7) . . . . . . . . . . . . . . . . . . . . .Summary of Significant Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16-40

  5(a)(8) . . . . . . . . . . . . . . . . . . . . .Audit Reports—Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49

  5(a)(9) . . . . . . . . . . . . . . . . . . . . .Audit Reports—Funds to Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49

  5(a)(10) . . . . . . . . . . . . . . . . . . . .Prior Audit Reports Unresolved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .57

  5(a)(11) . . . . . . . . . . . . . . . . . . . .Significant Revised Management Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .57

  5(a)(12) . . . . . . . . . . . . . . . . . . . .Significant Management Decisions with which OIG Disagreed . . . . . . . . . . . . . . . . . . . . . . .57



4(A)(2): REVIEW OF LEGISLATION                                                                 regulatory initiatives affecting Commerce programs are
AND REGULATIONS                                                                                discussed, as appropriate, in relevant sections of the report.

This section requires the inspector general of each agency to
review existing and proposed legislation and regulations relating                              SECTION 5(A)(3): PRIOR SIGNIFICANT
to that agency’s programs and operations. Based on this review,                                RECOMMENDATIONS UNIMPLEMENTED
the inspector general is required to make recommendations in the
semiannual report concerning the impact of such legislation or                                 This section requires identification of each significant
regulations on the economy and efficiency of the management of                                 recommendation described in previous semiannual reports for
programs and operations administered or financed by the agency                                 which corrective action has not been completed. Section 5(b)
or on the prevention and detection of fraud and abuse in those                                 requires that the Secretary transmit to Congress statistical tables
programs and operations. Comments concerning legislative and                                   showing the number and value of audit reports for which no final



56                                                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                                 Reporting Requirements



action has been taken, plus an explanation of the reasons why        concerning the desired timetable for delivering a decision on each
recommended action has not occurred, except when the                 such report. There were no unresolved audits more than 6 months
management decision was made within the preceding year.              old.

To include a list of all significant unimplemented
recommendations in this report would be duplicative, costly,         SECTION 5(A)(11): SIGNIFICANT REVISED
unwieldy, and of limited value to Congress. Any list would have      MANAGEMENT DECISIONS
meaning only if it explained whether adequate progress is being
made to implement each agreed-upon corrective action.                This section requires an explanation of the reasons for any
Management updates the Department’s Audit Tracking System            significant revision to a management decision made during the
annually, most recently as of July 2003. Information on the status   reporting period. Department Administrative Order 213-5, Audit
of any audit recommendations can be obtained through OIG’s           Resolution and Follow-up, provides procedures for revising a
Office of Audits.                                                    management decision. For performance audits, OIG must be
                                                                     consulted and must approve in advance any modification to an
                                                                     audit action plan. For financial assistance audits, OIG must
SECTIONS 5(A)(5) AND 6(B)(2):                                        concur with any decision that would change the audit resolution
INFORMATION OR ASSISTANCE REFUSED                                    proposal in response to an appeal by the recipient. The decisions
                                                                     issued on the nine appeals of audit-related debts were finalized
These sections require a summary of each report to the Secretary     with the full participation and concurrence of OIG.
when access, information, or assistance has been unreasonably
refused or not provided. There were no such instances during this
semiannual period and no reports to the Secretary.                   SECTION 5(A)(12): SIGNIFICANT
                                                                     MANAGEMENT DECISIONS WITH WHICH
                                                                     OIG DISAGREED
SECTION 5(A)(10): PRIOR AUDIT
REPORTS UNRESOLVED                                                   This section requires information concerning any significant
                                                                     management decision with which the inspector general disagrees.
This section requires a summary of each audit report issued          Department Administrative Order 213-5 provides procedures for
before the beginning of the reporting period for which no            elevating unresolved audit recommendations to higher levels of
management decision has been made by the end of the reporting        Department and OIG management, including their consideration
period (including the date and title of each such report), an        by an Audit Resolution Council. During this period no audit
explanation of why a decision has not been made, and a statement     issues were referred to the council.




September 2003/Semiannual Report to Congress                                                                                      57
ACRONYMS

ATP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Technology Program
BEA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Economic Analysis
BIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Industry and Security (formerly Bureau of Export Administration)
CAMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commerce Administrative Management System
CIRT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .computer incident response team
CIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .chief information officer
CMM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Capability Maturity Model®
COOP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .continuity of operations plans
COTR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .contracting officer's technical representative
COTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .commercial off-the-shelf
EDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Economic Development Administration
ESA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Economics and Statistics Administration
ETL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Environmental Technology Laboratory
FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Aviation Administration
FAR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Acquisition Regulation
FedCIRC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Computer Incident Response Center
FISMA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Information Security Management Act
GBL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .government bill of lading
GISRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Information Security Reform Act
GPRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Performance and Results Act
GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration
GWAC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .government-wide agency contract
IAIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Information Analysis and Infrastructure Protection
ITA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .International Trade Administration
LAN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .local area network
MAF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .master address file
MBDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Minority Business Development Agency
MBE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .minority-owned business
MBOC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Minority Business Opportunity Committee
MEP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Manufacturing Extension Partnership




58                                                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                                                     Semiannual Report to Congress, September 2003



NAFTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .North American Free Trade Agreement
NDAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Defense Authorization Act
NEFSC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Northeast Fisheries Science Center
NESDIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Environmental Satellite, Data, and Information Service
NEXRAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Next Generation Weather Radar
NIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Institute of Standards and Technology
NMFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Marine Fisheries Service
NOAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Oceanic and Atmospheric Administration
NPC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Processing Center
NTIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Telecommunications and Information Administration
NWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Weather Service
OAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Acquisition Management
OCS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Computer Services
OEE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Export Enforcement
OI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Investigations
OLE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Law Enforcement
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget
PALM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Patent Application Location and Monitoring
PCIE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .President's Council on Integrity and Efficiency
POA&M . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Plan of Action and Milestone
OAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Acquisition Management
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget
OEP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .occupant emergency plan
OOS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Operational Systems
RDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Research Data System
RLF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .revolving loan fund
ROC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Radar Operations Center
SCO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .senior commercial officer
TA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Technology Administration
TIGER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Topologically Integrated Geographic Encoding and Referencing
TPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .transition power source
US&FCS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .U.S. and Foreign Commercial Service
USPTO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .U.S. Patent and Trademark Office
WAN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .wide area network




September 2003/Semiannual Report to Congress                                                                                                                                                   59
U.S. DEPARTMENT OF COMMERCE
Office of Inspector General
Room 7099C, HCHB
1401 Constitution Avenue, N.W.
Washington, D.C. 20230

Internet Web Site:
http://www.oig.doc.gov




                                 September 2003
